<html>
<title> - THE HUMANITARIAN CRISIS IN EAST TIMOR</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                 THE HUMANITARIAN CRISIS IN EAST TIMOR

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      Thursday, September 30, 1999

                               __________

                           Serial No. 106-84

                               __________

    Printed for the use of the Committee on International Relations



                     U.S. GOVERNMENT PRINTING OFFICE
63-316 CC                    WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
              Gary Stephen Cox, Democratic Staff Director
                  Nicolle A. Sestric, Staff Associate
                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Hon. Harold Hongiu Koh, Assistant Secretary, Bureau of Democracy, 
  Human Rights, and Labor, U.S. Department of State..............    11
Hon. Julia Taft, Assistant Secretary, Bureau of Population, 
  Refugees, and Migration, U.S. Department of State..............    17
Mr. Xanana Gusmao, President, National Council of Timorese 
  Resistance.....................................................    32
Mr. Jose Ramos-Horta, 1996 Nobel Peace Prize Winner, Vice 
  President, National Council of Timorese Resistance.............    34
Mr. Allan Nairn, Journalist, former detainee in East Timor.......    44
Mr. Arnold S. Kohen, Biographer of Bishop Carlos Ximenes Belo....    55
Mr. T. Kumar, Advocacy Director, Amnesty International, U.S.A....    40
Ms. Emilia Peres, escapee of East Timor..........................    50

                                APPENDIX

Prepared Statements:
Hon. Christopher H. Smith, a Representative in Congress from the 
  State of New Jersey, Chairman, Subcommittee on International 
  Operations and Human Rights....................................    74
Ms. Julia V. Taft................................................    77
Mr. Arnold S. Kohen..............................................    81
Mr. T. Kumar.....................................................    84
Ms. Emilia Perse.................................................    96

                          Additional Material:

Statement by U.S. Defense Secretary William S. Cohen.............    97
Statement by Spokesman James B. Foley, U.S. Department of State..    98
Statement from the Multinational Humanitarian Mission............    99
The Washington Post, ``Another Messy Apartment,'' September 10, 
  1999...........................................................   101
The Tablet, ``Going Home with Bishop Belo,'' by Arnold Kohen, 
  October 23, 1999...............................................   102
U.S. News and World Report, ``A Plea for Peace From Someone Near 
  Hell,'' September 27, 1999.....................................   103


                 THE HUMANITARIAN CRISIS IN EAST TIMOR

                              ----------                              


                      Thursday, September 30, 1999

                  House of Representatives,
                      Subcommittee on International
                               Operations and Human Rights,
                              Committee on International Relations,
        Washington, D.C.
    The Subcommittee met, pursuant to notice, at 12:30 p.m., in 
room 2172, Rayburn House Office Building, Christopher H. Smith 
(Chairman of the Subcommittee) presiding.
    Mr. Smith.  Today's hearing is about the continuing 
humanitarian and human rights crisis in East Timor, and about 
the past, present, and future of U.S. policy toward that 
country. I am particularly pleased that one of our witnesses 
will be East Timorese independence leader, Xanana Gusmao, who I 
first met in Cipinang Prison in May of last year.
    We will also hear from the State Department, from our two 
distinguished witnesses who will be the lead-off panel, and 
from Nobel Peace Prize winner, Jose Ramos-Horta, and from 
several other distinguished experts and human rights advocates.
    When I visited Indonesia about 1\1/2\ years ago, just after 
the fall of the Suharto Regime, I hoped not only that democracy 
would come to Indonesia, but also that the people of East Timor 
would finally get the chance to exercise their right of self-
determination. But I did not dream this exercise would occur so 
soon. Now that the referendum in East Timor is history and the 
people have spoken, it should be a time for congratulations and 
celebration.
    Instead, however, the post-election period has become a 
time of mass killings, forced relocations, and other grave 
human rights violations. Although these atrocities were 
ostensibly committed by anti-independence East Timorese 
militias, it is clear that they were assisted and probably 
directed by important elements in the Indonesian military.
    Nobody knows how high the chain of complicity extends into 
the Indonesian military command, and nobody knows, as yet, how 
many thousands of people have been killed. Even now, although 
the international peacekeeping force is doing great work in 
Dili and a few other locations in East Timor, in other places 
it appears that the brutal campaign of destruction carried out 
by the militias and their Indonesian military sponsors 
continues.
    The arrest this week in East Timor of a number of KOPASSUS 
soldiers is a clear indication of this. I have to wonder 
whether any of these killers were trained by our Government. I 
hope that Secretary of Defense Cohen will send a strong message 
during his visit that there will be no more military training, 
no more assistance of the military kind, and no other 
nonhumanitarian assistance to the Government of Indonesia until 
the perpetrators of these atrocities, however high-ranking they 
may be, are held accountable.
    In the meantime, the United States must provide whatever 
assistance is necessary to get the peacekeeping force in full 
and immediate control of the entirety of East Timor. 
Specifically, the Administration has requested $140 million for 
a contribution to peacekeeping in East Timor.
    I understand this amount will be fully off-set by 
reductions in various nonhumanitarian accounts. Although this 
request has come in subsequent to both the House and Senate 
passage of the Foreign Relations Authorization Act for fiscal 
year 2000, I will work to get it included the conference 
report, and I urge my colleagues on the Appropriations 
Committee to provide the necessary appropriations.
    We also need to step up humanitarian assistance to prevent 
people who are still hiding in the hills, as well as those who 
have returned to their burned-out homes, from dying of 
starvation and disease.
    Finally, international humanitarian organizations, 
including the U.N. High Commissioner for Refugees must be given 
immediate and complete access to the refugees in West Timor. 
There are, as you know, credible reports that people are being 
murdered in these camps by the same militias and the same 
Indonesian soldiers who were murdering them a few days ago in 
East Timor, and that many of the refugees may be forced to 
relocate in other parts of Indonesia.
    We must insist that a transparent and secure process be set 
up immediately to find out how many of these refugees wish to 
return to East Timor and to assist them in returning. I 
understand there are also East Timorese living in Jakarta and 
elsewhere in Indonesia who are in grave danger.
    I hope the United States will assist in arrangements for 
the immediate evacuation of these people. It may be possible to 
find temporary asylum for them in safe countries in the Asia-
Pacific region. If not, we should offer them a safe haven in 
the United States until it becomes feasible for them to return 
to East Timor. Every day these urgent measures are delayed, 
more people will die. So, our immediate emphasis must be on 
addressing these elements of the current humanitarian crisis.
    I hope, however, that our witnesses will speak not only to 
the immediate present, but also to the past, and to the future. 
First, we must analyze and learn from the mistakes we have 
made, particularly in our relationship with the Indonesian 
military. We armed them, trained them, conducted joint 
exercises with them, even gave them honors and awards, on the 
theory that this would make them less likely to violate the 
internationally recognized and God-given human rights of their 
own people and of the people of the captive nation of East 
Timor.
    It now seems clear that we were wrong. The recent 
suspension of U.S.-Indonesian military-to-military relationship 
is a positive step. An even more positive step would be for 
Congress to enact, and the President to sign, legislation which 
would set forth clearly the conditions on which that suspension 
will either continue or be lifted, including full compliance 
with Indonesia's international agreements regarding East Timor, 
immediate release of the refugees in West Timor, top-to-bottom 
reform of the military, and accountability for those who have 
committed human rights violations.
    The Feingold-Helms bill, which should soon pass the Senate, 
contains all of these provisions, and I am a co-sponsor of the 
companion House bill introduced by Congressman Pat Kennedy, 
H.R. 2895. I promise to work for the passage of this 
legislation in the House, and I urge the Administration to 
endorse it and to work for it as well.
    As for the future, we must discuss how to rebuild East 
Timor and to set the new country on the road to self-
sufficiency. One benchmark for how much help we should give 
East Timor could be the amount of our past assistance, 
including bilateral aid, as well as World Bank and IMF money, 
that contributed directly or indirectly to suppression and then 
destruction in East Timor.
    Finally, I want to emphasize that Indonesia is not the 
enemy. Individual murderers and thugs, and whatever structures 
within the military and the Government of Indonesia allowed 
them to remain and prosper, are the enemy. Whatever his 
weaknesses, President B.J. Habibie deserves credit for agreeing 
to the referendum in the first place.
    I am also pleased that Megawati Sukarnoputri, who will 
probably be Indonesia's next President, has issued strong 
statements accepting the results of the referendum and 
condemning the violence. So, it is important to make clear that 
the United States should look forward to a continued friendly 
relationship with the Indonesian people, and even the 
Indonesian Government, but only on the clear conditions that 
the killing must stop, the killers must be brought to justice, 
and the system must be reformed to ensure that nothing of this 
sort ever happens again.
    I would like to yield to my good friend, Cynthia McKinney, 
the Ranking Member of this Subcommittee, for any opening 
comments she might have.
    [The prepared statement of Mr. Smith appears in the 
appendix.]
    Ms. McKinney.  Thank you, Mr. Chairman.
    I would like to open by personally thanking you for your 
leadership and concern about this human rights tragedy that has 
unfolded in East Timor. I would also like to thank my 
colleague, Congressman Patrick Kennedy, who has initiated 
several legislative measures on East Timor. I am a very proud 
co-sponsor of them all.
    Mr. Chairman, I would also like to recognize the courage of 
Xanana Gusmao, Jose Ramos-Horta, and Allan Nairn who have all 
stood up against the might of the Indonesian military. Through 
their ongoing courage, they have revealed the full horrors of 
Indonesia's illegal occupation of East Timor. They have told 
the world of mass killings, widespread rape, and the systematic 
destruction of democracy in East Timor.
    These brave men here today are the voice of the voiceless. 
Their heroic qualities and personal sacrifice does not go 
unnoticed. We are honored to be in their presence.
    Mr. Chairman, the U.S. Government has blood on its hands as 
a result of our dealings with the Indonesian military over in 
East Timor.
    Without a shadow of a doubt, the recent events in East 
Timor, are like the human rights disasters which unfolded in 
Rwanda in 1994, and then Srebrenica in 1995. Mr. Chairman, 
under your leadership, this Committee has now conducted two 
hearings into these great tragedies. We have heard chilling 
evidence against the United Nations, accusing it of 
deliberately surrendering the peoples of Rwanda and Srebrenica 
to almost certain death.
    Despite so much suffering caused by cowardness, callous 
indifference, and gross levels of negligence. The world appears 
to have learned nothing. We are gathered here once more to hear 
allegations that the world has failed to confront mass killing 
and other grave human rights abuses. This time, the place is 
East Timor. What is also incredible is that the world has stood 
idly by for 25 years and allowed Indonesian security forces to 
murder an estimated 200,000 East Timorese.
    Mr. Chairman, the United States has much to be ashamed of. 
Our foreign policy toward Indonesia, and ultimately East Timor, 
is simply unconscionable. The American people deserve to know 
the truth about our Government's complicity in Indonesian's 
subjugation of the people of East Timor. Indonesia was decided 
to be of strategic U.S. economic and military interest because 
of its location near vital sea lanes used by U.S. military and 
commercial fleets.
    The world now knows that President Gerald Ford and his 
former Secretary of State Henry Kissinger, surrendered East 
Timor to the Suharto regime. Claiming that intervention was 
necessary to restore peace and security to East Timor, 
Indonesia invaded on December 7, 1975, 1 day after President 
Ford and Secretary of State Henry Kissinger departed from a 
Summit meeting in Jakarta.
    Mr. Chairman, that action was an explicit green light for 
Indonesia to invade East Timor. For 25 years, the U.S. 
Government has chosen to ignore Indonesia's ongoing crimes. We 
have turned our backs on international law. We have ignored the 
United Nations' instruments detailing the collective laws of 
nations on fundamental human rights, the 1948 Declaration of 
Human Right, the 1948 Genocide Convention, and associated 
protocols, and the more recent Torture Convention.
    Worse still, we have been directly involved in the crimes 
committed in East Timor by the Indonesian military. We trained 
the notorious KOPASSUS, the dreaded Indonesian special forces 
at the School of the Americas in my own home State of Georgia, 
and by special American forces on-the-ground in Indonesia. In 
light of the extensive evidence confirming that Indonesian 
military forces were murdering and committing grave crimes in 
East Timor, Congress voted in 1992 to cut military aid to 
Indonesia.
    Despite this vote, the Department of Defense used another 
program to maintain its support to Indonesian military. We have 
every indication that the KOPASSUS is still operating in East 
Timor, even as we hold these hearings. Mr. Chairman, what makes 
the recent outbreak of violence and killings in East Timor more 
egregious, is that once again we knew it was going to happen.
    Clearly, Indonesian military forces were preparing the 
militia to attack the courageous citizens of East Timor who 
chose independence, despite the lurking and ever-present 
militia. The U.N.'s decision to insist upon waiting for the 
Indonesian Government to invite the international community 
into East Timor to stop the murderous campaign it was itself 
directing was in fact an explicit invitation for Indonesia to 
carry out a scorched dearth policy.
    What can we say as Members of Congress to the people of 
East Timor? No amounts of apologies from the U.S. Government 
can resurrect the 200,000 victims of genocide. No apology can 
ever make up for our culpability in the demise of personal 
freedom in East Timor, freedom that every American takes for 
granted on a daily basis.
    Let it be known that there are those of us in Congress who 
are working for a responsible arms transfer code of conduct to 
prevent the transfer of arms to dictatorial regimes. There are 
those of us who want to hold the Department of Defense 
accountable when they find loopholes to bypass the wishes of 
the American people.
    There are those of us in Congress who are calling for the 
creation of an international criminal court. Ms. Mary Robinson, 
the United Nations Commissioner for Human Rights, has called 
upon the U.N. to initiate a War Crimes Tribunal to investigate 
the gross violations of human rights law in East Timor. I 
support her call.
    The United States cannot continue to hope to command 
respect in the world where, on one hand, we demand that all 
nations to help us to prosecute those persons or regimes 
responsible for bombing our embassies, attacking our aircraft, 
or otherwise harming our National interests, while we continue 
to support dictators or regimes guilty of committing genocide 
and crimes against humanity against innocent peoples.
    The mass murder, the torturer, the ethnic cleanser are 
enemies of all mankind and they are repugnant to civilized 
society. They can never be our allies or our friends. When we 
knowingly aid and abet them to commit their vile crimes, we 
become as guilty as they, and we should stand condemned.
    Mr. Chairman, we were once a great force in the world, 
known for our generosity and courage in the face of adversity. 
In two World Wars, we were a leader in their fight to preserve 
democracy and ensure that the world was not consumed by evil.
    Today, we are fighting to maintain our reputation as a 
world leader. Many believe we have lost our moral compass. East 
Timor is another test for us. How we conduct ourselves there 
will be a good indicator on whether or not we have the ability 
or the intention to meet our legal and moral obligations as a 
member and leader of the world community.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. McKinney appears in the 
appendix.]
    Mr. Smith.  Ms. McKinney, thank you for your very powerful 
and comprehensive statement.
    The Chair recognizes the Chairman of the Full Committee, 
Mr. Gilman.
    Chairman Gilman.  Thank you, Mr. Chairman.
    I want to commend our distinguished Chairman of our 
Subcommittee on International Operations and Human Rights, the 
gentleman from New Jersey, Mr. Smith, and Ranking Minority 
Member, Ms. McKinney, for holding this very important and 
relevant hearing today regarding the humanitarian crisis in 
East Timor.
    I want to take this opportunity to welcome our two 
distinguished panelists who are before us right now, the 
Honorable Harold Koh, our Assistant Secretary for Democracy, 
Human Rights, and Labor in the State Department; and the 
Honorable Julia Taft, the Assistant Secretary for Bureau of 
Population, Refugees, and Migration, who is no stranger to this 
Committee.
    We thank both of you for being here today. I am still 
troubled, as my colleagues are, by the situation in East Timor. 
Although the first elements of a multinational force, led by 
our friends, the Australians, and supported by some American 
troops, have landed on the island.
    There are still many challenges ahead. The extent of these 
challenges is only now becoming known. First, the Government of 
Indonesia must abide by its commitment to respect the results 
of the August 30th referendum and the rights of the East 
Timorese to a peaceful transition to independence. President 
Habibie's comments, although tragically late, ``Indonesia must 
honor and accept that choice.''
    It is an important step. It is hoped that his words will be 
fulfilled by his deeds. Accordingly, the Indonesian parliament 
must ratify the popular decision of the people of East Timor at 
an early date and set East Timor on its course toward 
independence.
    Second, the Indonesian military, which participated in the 
violence, and aided and abetted the militias, should fully 
withdraw from East Timor. This will allow refugees and 
displaced persons to return home from West Timor and elsewhere 
confident of their safety.
    It will also reduce the likelihood of a class with a 
multinational force. We have been informed that hundreds of 
thousands of East Timorese have been displaced under the gun 
and moved to West Timor.
    Third, I urge the international community to investigate 
the human rights abuses and the atrocities which occurred in 
the aftermath of the elections. We call upon the Government of 
Indonesia to hold fully accountable those responsible for the 
reprehensible acts of violence. We need to have an 
international criminal tribunal to begin an investigation into 
what is and what has taken place.
    Mr. Chairman, finally in the light of these devastating 
events, the Administration must reevaluate its military 
relationship with the Indonesian armed forces. The Pentagon 
should conduct a full-scale review of its military-to-military 
relationship with Jakarta, including the effectiveness of the 
IMET Program and joint training and exercises and our arms 
sales.
    The Pentagon should not reinstitute any aspect of the 
military relationship without full consultation with the 
Congress. Earlier this week, the House passed our resolution, 
H.R. 292, and sent it to the Congress regarding the present 
situation in East Timor.
    Due to the situation on the ground, we need to consider 
further legislative initiatives to make certain that our Nation 
is doing all that it can to stop the killing and end the 
humanitarian crisis. If the Administration does not take strong 
measures, there is bipartisan Congressional support for 
suspending multilateral and bilateral economic and military 
assistance until the following conditions are met:
    that the refugees can safely return to their homes, that 
terrorizing and murder of innocent civilians and targeting of 
local religious leaders have ceased, that the militias in both 
East and West Timor have been disarmed and their leaders 
prosecuted, and the independence of East Timor becomes a 
reality.
    In addition, we need full cooperation from the Indonesian 
Government for an international criminal tribunal. We look 
forward to hearing from our distinguished witnesses today. Our 
friends from East Timor have fought so courageously with little 
but their cause to sustain them.
    They have lost family and friends. We hope their suffering 
will soon end. While our Nation and the world community has 
been slow to respond to their calls for help throughout the 
years, we must not lose sight of all that they have 
accomplished for future generations of East Timorese.
    In addition, that small nation of East Timor, about the 
size of Israel in the vast Pacific Ocean, has given hope beyond 
measure to those in similar circumstances who are continuing to 
struggle for their own freedom. Let us not forget that when 
they take their seat at the U.N.
    We look forward to hearing from our witnesses today. Again, 
I thank our Chairman for conducting this hearing.
    Mr. Smith.  Thank you very much, Mr. Gilman. Thank you for 
all your good work you have done for many years on East Timor. 
You certainly have been a real leader.
    I would like to recognize the gentleman from American 
Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega.  Thank you, Mr. Chairman.
    I want to personally offer my welcome to Secretary Taft and 
Secretary Koh for making available their time to come and 
testify before this Committee. Mr. Chairman, I cannot thank you 
enough for your leadership over the years in conducting 
hearings affecting human rights violations throughout the 
world. Specifically, we have held hearings on East Timor for 
the past 3 or 4 years on this very issue of human rights 
violations.
    The atrocities that the Indonesian military have committed 
against the people of East Timor are certainly unwarranted. I 
want to say, Mr. Chairman, that I fully associate myself with 
the statements made earlier by my colleague and good friend, 
the Ranking Member of our Subcommittee, the gentle lady from 
Georgia.
    Given this sense of perspective of history, I know that 
perhaps we cannot go back and undo the sins of the past, but I 
think we have to remember quite clearly that I can well 
remember what the poet Santayana once said, that those who do 
not remember the past are condemned to repeat their mistakes. 
The sad legacy that we can associate with what is going on with 
East Timor is the fact that the atrocities did not happen just 
2 or 3 years ago.
    This has been going on for 25 years. I have to say that the 
full responsibility lies with the international community, 
whether it be a lack of will, whether it be a lack of political 
fortitude or whatever. They were just as much a part of the 
complicity, given the fact that until this day, the world 
community never sanctioned Indonesia's military, which killed 
200,000 East Timorese. Even our own country never officially 
sanctioned the Indonesian Government for this military takeover 
that was done under the auspices of these two dictators, 
Sukarno and Suharto.
    Mr. Chairman, one of the things that I find quite 
interesting that the media has never publicized, is why so much 
interest in East Timor, not only by the Indonesian Government, 
but even by some of our friendly Western countries? It is 
because of the oil reserves.
    Billions of dollars' worth of oil there perhaps contributed 
to the reluctance of friendly Western nation to interfere with 
Indonesia because of the vast amount of resources and corporate 
interests in this area in East Timor. I say this, Mr. Chairman, 
with a real sense of congratulations. I want to congratulate 
Mr. Horta and Mr. Gusmao, and the people of East Timor, that 
they have finally, after 25 years of struggle, been given an 
international referendum on independence, where they have 
spoken, despite all of the intimidation by the Indonesian 
militia.
    Over 78 percent of Timorese voted in favor of independence. 
I am so happy for them. I want to also say for the record, Mr. 
Chairman, I have the fondest love and affection for the good 
people of Indonesia, but it is the government policies under 
the leadership of these dictators that has caused so much 
misery and the sad legacy that we now have come to evidence 
with East Timor.
    I have said it before, Mr. Chairman, and I am going to say 
it again. I want to thank the American people, our fellow 
Americans of Portuguese ancestry and the country of Portugal 
itself, for bringing this issue to the forefront for the past 
25 years until finally it is evident that people of East Timor 
they want to be independent.
    There is another area too, Mr. Chairman, that I want to 
discuss. You cannot talk about East Timor, while at the same 
time ignoring the atrocities, the massacres, and the brutality 
of the Indonesian army that is currently being targeted against 
the people of West Papua New Guinea. We cannot ignore that.
    I Humbly submit, Mr. Chairman, that this is going to be the 
next chapter to unfold in the coming years. Mr. Chairman, this 
is not to suggest, as stated by friendly leaders from some of 
the Western countries, that, we should be afraid that this will 
lead to Balkanization of Indonesian.
    The fact of the matter is, Mr. Chairman, West Papua New 
Guinea was also taken over by the Indonesian military at the 
cost of over 100,000 West Papua New Guineas who so far have 
died, disappeared, massacred the same way, the brutality of the 
Indonesian military had taken against the people of East Timor.
    Why the interest in West Papua New Guinea? I will tell you, 
Mr. Chairman. The largest gold mine and copper operations now 
currently going on in West Papua New Guinea are owned by 
Western nations. Freeport-McMoran company from the United 
States, alone with businesses from Australia and, the United 
Kingdom, have vast economic and corporate interests in this 
area at the expense of the environment and the lives and the 
welfare of the Papuan people. Let us not talk about 
Balkanization. It has been proven that East Timor and West 
Papua New Guinea had no relationship whatsoever with the 
government of Indonesia. Given the fact that these were former 
colonies and now is it OK for another country to colonize 
another colony? This is ridiculous, Mr. Chairman.
    Mr. Chairman, this is not an Asian issue, but an issue of 
humanity. These are human beings. This is not just about East 
Timorese or West Papua New Guineans people of a darker 
complexion, who can be ignored because this is not Kosovo, 
because our interests primarily rest in Europe.
    Mr. Chairman, if that is the policy of our Administration 
and this Government, then I say shame on America. Mr. Chairman, 
again, I want to thank you. I look forward to hearing from our 
witnesses.
    Mr. Smith.  Thank you, Mr. Faleomavaega. Mr. Sherman.
    Mr. Sherman.  Thank you, Mr. Chairman.
    I want to applaud the speakers that have gone before. They 
have covered much of the ground that I would like to cover. 
They covered it very well. I would like to add very little. 
East Timor was in the news nationally and internationally in 
the mid-1970's when it was conquered.
    It was then swept off the front pages. A few people here in 
this House, a few people around the United States and around 
the world kept the flame alive. We owe a debt of gratitude to 
the Nobel Committee, to people here in the United States, but 
especially to the courage of the East Timorese themselves, who 
have endured for 25 years in a cause that so many thought was 
hopeless and that may very well have turned out to have been 
hopeless had it not been for a weakness in the dictatorial 
regime of Indonesia caused by other factors.
    I think we should commend the Government of Australia for 
sending, I believe it is, 8,000 of its people into this effort. 
Proportionately, that is like the United States sending over 
100,000 of our men and women into harm's way. At the same time, 
we should show concern for the fact that Japan has once again 
chosen not to contribute in any significant way to peacekeeping 
efforts. When Japan did not contribute significantly to Kosovo, 
they said, that is Europe. This is the Asia-Pacific region and 
it is time for Japan not to regard its mistakes and even crimes 
of the first half of this Century as an excuse for not doing 
its part in the second part of the Century.
    Finally, we need to look forward to East Timor acquiring 
peace and prosperity. Toward that end, we have to be willing to 
extend aid. One thing that may be just as important would be to 
reallocate the textile quota, to reduce the textile quota for 
Indonesia and to allocate some of that textile quota to East 
Timor.
    I look forward to the day when we see imports from East 
Timor here in the United States. Perhaps starting with textiles 
and maybe someday after that it will be computers and higher 
priced items.
    Thank you, Mr. Chairman.
    Mr. Smith.  Thank you, Mr. Sherman.
    The Chair recognizes the gentleman from New York, Mr. 
Crowley.
    Mr. Crowley.  Thank you, Mr. Chairman.
    I, too, will be brief. I want to thank you for holding this 
important hearing on the humanitarian crisis in East Timor. The 
situation in East Timor deteriorated so rapidly that the 
international community, and I am going to be giving the 
benefit of the doubt here, was caught off-guard, despite 
previous warnings of possible violence by pro-Indonesian 
militia, after the historic referendum.
    I am pleased and encouraged that the U.N. Security Council 
approved the resolution to deploy a multinational force to East 
Timor, and that half of the 8,000 troops for the Australian-led 
multinational force are currently on the ground in East Timor. 
This sorely needed action by the U.N. will provide the security 
and hope that East Timor needs to build itself into an 
independent nation.
    However, food and medical care remains scarce. Hundreds of 
thousands of East Timorese are in hiding or refugees detained 
in West Timor. Despite the grim reminders of violence that 
permeated the area, from every indication I have read, things 
are looking a bit brighter.
    On Tuesday, the United Nations agreed to form a Commission 
of Inquiry, despite the objections of the Indonesian Government 
to investigate abuses committed by departing troops and militia 
members in retaliation for the vote for independence in East 
Timor. I am hopeful that a full War Crimes Tribunal will be 
conveyed as soon as possible and that indictments will be 
handed down.
    Mr. Chairman, despite this positive news, the situation in 
East Timor is volatile and will remain so for some time. I am 
grateful to you for calling this open hearing so that Members 
of this Committee can better understand the challenges ahead 
for East Timor.
    Thank you very much, Mr. Chairman.
    Mr. Smith.  Thank you very much, Mr. Crowley.
    The gentleman from Massachusetts, Mr. Delahunt.
    Mr. Delahunt.  I think everything has been said that I 
would want to say. I particularly want to acknowledge the 
leadership of the gentleman from American Samoa. He has been 
speaking to this issue for a very long period of time. I think 
that we could feel his passion, his commitment, and how 
conversant he is with this issue.
    I would also pause just to reflect for a moment on the 
military-to-military relationship. Recently, I think it was 
back in July 1998 when Assistant Secretary of Defense, Mr. 
Kramer, argued that, and I am quoting from his appearance 
before this Subcommittee, that ``By helping professionalize the 
Indonesian armed forces, we can help reduce human rights 
abuses.''
    That certainly is a policy that has failed and failed 
miserably. It is time that this Committee and this Congress 
revisit the military-to-military relationships and the training 
of foreign troops by our Department of Defense.
    I yield back.
    Mr. Smith.  Thank you very much, Mr. Delahunt.
    I would like to welcome our very distinguished panel, panel 
No. 1, from the Administration. The Honorable Harold Koh was 
appointed Assistant Secretary of State for Democracy, Human 
Rights, and Labor in 1998. Before that appointment, Mr. Koh 
served both as professor of international law and as the 
Director of the Center for International Human Rights at Yale 
Law School.
    This Subcommittee has had a very good relationship with him 
in that former job, as well as the current job that he 
occupies. Assistant Secretary Koh earned both his B.A. and law 
degrees from Harvard University. He has authored numerous 
articles on international law and human rights.
    Second, the Honorable Julia Taft has served as Assistant 
Secretary of the Bureau of Population, Refugees, and Migration 
since November 1997. Before becoming Assistant Secretary, Ms. 
Taft was President and CEO of Inter Action, again, another 
organization that this Subcommittee and many of us have had a 
lot of cooperation with and have worked very closely with.
    Her involvement with refugee issues began in 1975 when 
President Ford named her Director of the Interagency Task Force 
for Indo-China Refugees. The Resettlement Program, which Ms. 
Taft directed, helped to bring more than 130,000 Indo-Chinese 
refugees into the United States.
    Thank you for being here. Secretary Koh, if you could 
begin.

   STATEMENT OF HON. HAROLD HONGJU KOH, ASSISTANT SECRETARY, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                            OF STATE

    Mr. Koh.  Mr. Chairman and Members of the Subcommittee, 
thank you for this invitation to testify today about the human 
rights and humanitarian emergency in East Timor.
    I have a written statement, with your permission, I would 
submit for the record and summarize here.
    Mr. Smith.  Without objection, your full statement will be 
made a part of the record.
    Mr. Koh.  Thank you. As Secretary Albright has said, the 
continuing humanitarian crisis in East Timor and the growing 
tragedy of East Timorese refugees in West Timor are of acute 
concern. They demand our attention and, I might add, that of 
anyone in the world committed to democracy and human rights.
    Mr. Chairman, thank you for holding this hearing at this 
critical moment. I commend this Committee for its leadership 
role in passing Tuesday a House resolution that condemns the 
violence in East Timor, supports the United Nations mission, 
UNAMET, and recognizes that U.S. foreign policy will require 
both an effective short-term response to the humanitarian and 
human rights crisis, as well as progress toward independence 
for East Timor.
    Mr. Chairman, last November immediately after being sworn 
as Assistant Secretary, I traveled to Jakarta where I met 
government officials, labor, and religious leaders, and human 
rights activists to discuss the immense challenges of curbing 
human rights abuses, promoting accountability, and bringing 
about a successful democratic transition in what is the fourth 
largest country in the world.
    This past March, I renewed that dialogue with special focus 
on the East Timor situation, when I accompanied Secretary 
Albright to Indonesia and met with President Habibie, Foreign 
Minister Alatas, Megawati Soekarnoputri, General Wiranto, 
Indonesian citizens who were committed to human rights and 
independence in East Timor, and East Timorese leader, Xanana 
Gusmao, while he was still under house arrest. In recent weeks, 
I have met three times with Nobel Peace Prize Laureate Jose 
Ramos Horta and, again, with Mr. Gusmao. I have spoken to 
numerous Members of Congress, U.S. and U.N. officials, NGO 
workers, journalists, and concerned citizens who are dedicated 
to bringing this crisis to an end.
    Since the violence erupted in East Timor, I have worked 
closely with Secretary Albright and supported her intense 
commitment to bring about an end to the violence, hold those 
responsible accountable, and help East Timor make a successful 
transition to independence. During the past 2 weeks, at the 
U.N. General Assembly in New York, many people from many 
nations have been working literally around the clock to address 
the crisis. I can tell you from my personal observation that 
the Secretary raised the issue in almost every meeting she held 
with her counterparts from all over the world. Just a few days 
ago, Secretary Albright and I, met again with Mr. Gusmao, Mr. 
Ramos-Horta, and their colleagues, who will be joining us here 
shortly. I share the Secretary's deep respect for their 
commitment to East Timor and to reconciliation and democracy. I 
am particularly pleased to welcome Mr. Gusmao to Washington for 
the first time as a free man making his first visit to our 
Nation's capital.
    I am especially pleased to be here today with my courageous 
friend and colleague, Julia Taft, the Secretary for Population, 
Refugees, and Migration. You have described her tremendous 
accomplishments. But let me say that she has just returned from 
the region where she has devoted countless hours toward 
addressing problem, and indeed has risked her own personal 
safety to do so. Both of us are working closely with our 
Ambassador to Indonesia, Stapleton Roy, the incoming 
Ambassador, Robert Gelbard, and the Assistant Secretary for 
East Asian and Pacific Affairs, Stanley Roth, who has followed 
developments closely, made repeated trips to the region, and 
has dedicated himself to finding a solution for East Timor that 
preserves human rights and democratic development throughout 
Indonesia. Although Mr. Roth could not be here today, Julia and 
I represent this Administration's unshakable commitment to 
helping the people of East Timor in their quest to secure 
peace, establish democracy, and enjoy freedom.
    I am also pleased to announce that as further demonstration 
of that commitment, Secretary Albright has asked me to travel 
to East and West Timor in the next few days.
    In a meeting last night, Secretary Albright secured 
agreement from Foreign Minister Alatas that I should visit the 
region to continue the Administration's work and investigate 
the truth about what has happened. During this trip, I will be 
working in close consultation and coordination with our 
incoming Ambassador, Mr. Gelbard.
    Before turning Assistant Secretary Taft, let me sketch the 
contours of the unfolding crisis, the international and U.S. 
Government response, and the immediate steps to be taken in the 
weeks and days ahead.
    Mr. Chairman, and members of the Committee, you are well 
aware of the human rights tragedy that unfolded in the wake of 
the U.N.-sponsored consultation of August 30th, in which 78.5 
percent of the population voted for independence.
    I need not repeat for you the story of how 99 percent of 
the East Timorese people, displaying great courage and 
determination, cast their ballots despite the violent 
intimidation tactics of pro-integrationist militias bent on 
disrupting the democratic process.
    Nor need I recount in detail the first painful days of 
rampage by these pro-integrationist militias in forcing 
Timorese people from their homes, torturing and killing them, 
and destroying their homes, while at the same time harassing, 
wounding, and in some cases killing humanitarian personnel, 
religious officials, and journalists.
    Let me briefly review what we know about the current 
overall situation in East and West Timor. I would like to leave 
the specifics and particularly the plight of the displaced East 
Timorese throughout Indonesia and in East and West Timor to my 
colleague, Julia Taft.
    Eyewitness reports from East Timor tell us that as of just 
a few days ago, the looting, burning, maiming, and killing was 
continuing even as Indonesian military forces were leaving the 
area.
    The U.S. Embassy in Jakarta has confirmed church and press 
reports that several days ago, at least nine church officials 
and staff, accompanied by an Indonesian journalist, were killed 
while bringing emergency supplies to displaced East Timorese 
hiding in the countryside.
    Reportedly, these killings were committed by members of the 
Indonesian military. These deaths serve as a sad reminder that 
the countryside remains unsafe for the people who live there. I 
have a statement from the State Department condemning the 
murders of these individuals. With your permission, I would 
like to submit it for the hearing record.
    Mr. Smith.  Without objection, Mr. Koh, it will be made a 
part of the record.
    [The prepared statement of Mr. Kol appears in the 
appendix.]
    Mr. Koh.  Equally distressing, humanitarian workers and 
journalists continue to be at risk, as witnessed by the brutal 
killing of Dutch journalist, Sander Thoenes on September 21st, 
and the more recent murder of the Indonesian journalist I just 
described.
    If the situation in East Timor remains dire, the conditions 
of those East Timorese stranded in West Timor is, in Secretary 
Albright's words, simply ``appalling.''
    As I speak, perhaps as many as 230,000 East Timorese, 
possibly over a quarter of the East Timorse population, have 
fled or been forced to flee to West Timor. Despite concerted 
pressure from the international community, we still have no 
evidence that the Indonesian Government has disarmed or 
disbanded any of the militias.
    Assistant Secretary Taft will describe, in more detail, 
what she personally witnessed in the camps, in particular the 
heavy militia presence in the camps. While the Indonesian 
Government has indicated that the East Timorese in the camps 
will be allowed to return home, we have no evidence that they 
have been permitted to do so.
    To the contrary, reports tell us that the Indonesian 
Government is deporting some of these East Timorese to other 
parts of Indonesia. As Secretary Albright has made clear, 
``this is an unacceptable and a clear violation of 
international standards of human rights''.
    The current situation in East and West Timor raises three 
fundamental human rights and democracy concerns, which will be 
the focus of my Bureau's and my attention in the days ahead.
    First, we have seen pervasive violence. Pro-integrationist 
militias, with the support of Indonesian military have 
committed large-scale killings, including reported murders, 
torture, involuntary disappearances, rape, and other sexual 
abuse and the forced expulsion of possibly one quarter of the 
population. Only through investigations now beginning, and the 
one that I will be carrying out myself will, we be able to 
determine just how many victims this crisis has claimed.
    Second, we have witnessed a deliberate campaign by the 
militias with their supporters and the Indonesian military to 
inhibit, prohibit, and abuse the fundamental human rights of 
the East Timorese people. Humanitarian observers and 
journalists have also been targets of this effort. We have seen 
widespread destruction of property, efforts to block aid to 
those in need, and deliberate efforts to squelch the reporting 
of ongoing violence by intimidating and attacking aid workers, 
U.N. observers, and journalists.
    Third, we fear that the militias and their allies in the 
military have acted not just to undercut human rights, but to 
subvert democracy as well. They have attempted first to 
interfere with and then to overturn a freely and fairly 
undertaken referendum on the future of the territory. Militias, 
acting with the assistance of the Indonesian military, have 
targeted those who have supported independence, attacked and 
harassed U.N. personnel, murdered clergy and journalists, and 
sought to prevent the implementation of a clear U.N. mandate to 
which their own President had agreed.
    As you know, the international community has responded to 
these massive abuses, applying strong diplomatic pressure to 
source the consent of the Indonesian Government to allow the 
arrival of a multinational force, known as INTERFET, into East 
Timor to keep the peace. The Australians, who have led this 
force, along with the many other nations who have pledged to 
commit troops and resources, deserve our recognition and 
support.
    As you will hear, troops have already begun to arrive. We 
are providing logistical, airlift, communications, and 
intelligence support, to INTERFET as well as a Civil Affair 
Unit. We have suspended our military-to-military cooperation, 
cut off all arms transfers, and are reviewing our assistance 
policy for Indonesia.
    The international community has also responded decisively 
on the human rights front. This past week the Commission on 
Human Rights of the United Nations convened an extraordinary 
special session in Geneva. The Commission voted by a large 
margin, 32 to 12 with 6 abstentions, in favor of a resolution 
calling for an International Commission of Inquiry to gather 
the facts and establish the truth about these recent, terrible 
events.
    As you know, Mr. Chairman, the United States voted with the 
E.U. in support of that resolution. Its key paragraph called on 
the U.N. Secretary General to establish an International 
Commission of Inquiry to gather and compile systematically 
information on possible violations of human rights and breaches 
of international and humanitarian law in East Timor since 
January 1999, and to provide the Secretary General with its 
conclusions.
    This paragraph calls for the Commission of inquiry to 
include human rights experts from Asia and to work in 
cooperation with the Indonesian National Commission on Human 
Rights (known as KOMNASHAM). These elements were added to 
address concerns expressed by the Government of Indonesia to 
gain their support for the Commission.
    In the end, however, of the Government of Indonesia was 
unwilling to accept the language and opposed the final text. 
The United Nations Commission on Human Rights, to its credit, 
recognized that it had an important duty to move forward, and 
passed the resolution. It marks an important step in our 
efforts to shed light on what happened in East Timor.
    To discuss next steps, during the past week and a half, I 
have met with many of our own members of our U.N. mission in 
New York, including Ambassador Richard Holbrooke and his able 
staff, and numerous officials of the United Nations, including 
U.N. Under-Secretary General Sergio Viera de Mello, U.N. High 
Commissioner for Human Rights, Mary Robinson, and UNAMET head 
Ian Martin. Everyone agrees that all concerned governments, 
NGO's, and international organizations must work together to 
make the resolution of this human rights and humanitarian 
crisis a top priority. We must continue to demand that the 
Indonesian military stop supporting militias who are committing 
acts of violence and destruction in East Timor, that they 
cooperate with INTERFET, and withdraw completely from East 
Timor.
    We must also continue to make clear, as Secretary Albright 
has stated in no uncertain terms, that ``what happens in West 
Timor to East Timorese living elsewhere in Indonesia is as 
important to United States policy as what happens in East Timor 
itself''.
    Even as Indonesian civil officials are searching for a 
workable solution to the humanitarian problem of feeding and 
housing hundreds of thousands of refugees, the militias' 
continuing pattern of harassment and intimidation demonstrates 
that much more needs to be done.
    I will let Assistant Secretary Taft speak more to these 
issues. It is clear that the Indonesian Government must disband 
and disarm the militias. There must be no tranborder attacks 
into East Timor or interference with humanitarian and human 
rights operations there.
    To support these demands, in the wake of the post-election 
violence, we suspended our military cooperation with Indonesia 
and initiated an ongoing review of our entire aid package. As 
we continue this review, we will, in the words of Secretary 
Albright, ``take into account all relevant factors, including 
whether a secure environment has been created in the West Timor 
camps, whether necessary services are being provided, whether 
East Timorese who desire to return home are allowed to do so, 
and whether Indonesia's military is preventing the militias in 
West Timor from carrying out attacks in East Timor.''
    We must also work to facilitate the establishment of the 
Commission of Inquiry that the United Nations Human Rights 
Commission voted to create and to ensure its work begins 
quickly. We are concerned by reports that the Indonesian 
Government has reconsidered its decision to cooperate with the 
Commission of Inquiry. We have already strongly urged the 
Government to revisit this decision.
    Finally, we have begun the process of identifying ways that 
we can help United Nations Secretary-General Kofi Annan, and 
Mary Robinson, the United Nations High Commissioner for Human 
Rights, in the effort to form the Commission of Inquiry. Two 
nights ago in New York, I met with High Commissioner Robinson 
to discuss her initiative in bringing this critical human 
rights situation to the formal attention of the United Nations 
and to encourage the U.N. to maintain the momentum.
    We discussed many items which are mentioned in my written 
statement, which I am prepared to discuss in the questioning 
period. Mr. Chairman, let me stress that we do not seek a rush-
to-judgment about who is ultimately responsible. There have 
been grave losses of life in East Timor, disturbing reports of 
human rights violations and other crimes by the Indonesian 
military or people affiliated with them, and almost certainly 
serious breaches of international humanitarian law.
    We remain tremendously concerned about the plight of the 
East Timorese people. But we need to document events fully and 
completely. That is the purpose of my upcoming trip. That is 
the purpose of the Commission of Inquiry: To assemble the 
information that will enable the international community to 
decide what further action needs to be taken. We are also 
providing aid to East Timor, which my Assistant Security Taft 
will describe in more detail.
    Finally, as Assistant Secretary for Democracy, Human 
Rights, and Labor, I must make special mention of our efforts 
to promote a democratic transition in Indonesia, even as we are 
attempting to promote a democratic transition in East Timor. If 
the tragic events in East Timor seem all too familiar, it is 
because they grow out of nationwide problems that Indonesia has 
faced in its own transition to democracy last year.
    The Indonesian people have shown genuine enthusiasm for the 
democratic process and have begun to create civil institutions, 
including press associations and independent human rights 
organizations, that will provide the foundation for the growth 
and development of civil society.
    We believe that a living, growing, and vibrant democratic 
institution offers the best hope for the people of Indonesia. A 
nation rich in diversity, Indonesia should not fear democracy, 
which can only help bind together its many people. The United 
States fully supports the people of Indonesia at this pivotal 
moment in their country's history.
    We are prepared to support this democratic transition in 
every way possible. But we are hindered from doing so as long 
as East and West Timor remain a human rights and humanitarian 
crisis.
    The goals toward which we are working are clear. The 
Government of Indonesia, and specifically the Indonesian 
military, must immediately disarm and disband the militias. 
Indonesian military support, organization, training, and 
direction of these brutal forces must cease.
    The human rights abuses of the militia personnel, police, 
and Indonesian military must be documented and the abusers 
brought to justice. We must support the Commission of Inquiry 
in its work, and support East Timor as it makes its transition 
to independence and Indonesia as it makes its transition to 
democracy. We simply cannot let ballots be undone by bullets.
    Mr. Chairman, we appreciate the strong and constructive 
interest shown by Members of Congress, and by you in 
particular, throughout this humanitarian and human rights 
crisis. We have a tremendous opportunity to help at this 
historic moment. We must work together to meet these 
considerable challenges.
    I would like to turn the podium over to my colleague, Julia 
Taft.

  HON. JULIA TAFT, ASSISTANT SECRETARY, BUREAU OF POPULATION, 
       REFUGEES, AND MIGRATION, U.S. DEPARTMENT OF STATE

    Ms. Taft.  Thank you, Harold, and Mr. Chairman, and 
Committee Members. Thank you very much for this opportunity to 
appear before you to discuss the situation of Timor, and the 
role of the U.S. Government, and what we are doing, and should 
be doing in the humanitarian crisis.
    Last week, I organized a multinational humanitarian mission 
to East and West Timor comprising of senior humanitarian 
officials from the United Kingdom, Sweden, Thailand, Japan, and 
the United States. This past Friday, we released our findings 
from that mission in Jakarta. I would like to submit that for 
the record, along with my full statement.
    [Statement from the Multinational Humanitarian Mission 
appears in the appendix.]
    Ms. Taft.  This mission was really shocked by the level of 
widespread destruction of homes, commercial facilities, and 
public facilities in Dili. We arrived D-plus-2. So, that was 2 
days after the INTERFET people arrived. The damage was just 
unspeakable.
    It was a very sad commentary on the price that these people 
have had to pay for their vote of independence. Unfortunately, 
we were unable to move beyond Dili because of the security 
situation. However, subsequent U.N. assessment missions have 
found widespread damage throughout East Timor.
    Manatuto, which was previously home to 16,000 people is 
completely destroyed and depopulated, and estimates are that 
between 60 to 70 percent of the houses in the western region of 
East Timor are destroyed. The Port of Suay was reported to be 
95 percent destroyed. Much of the damage is by fire, consistent 
with the slash and burn approach of the area.
    With deployment of the International Force for East Timor, 
INTERFET, under the able command of Australian Major General 
Cosgrove, and the withdrawal of the Indonesian troops, we 
believe the security situation is slowly but progressively 
improving. Internally displaced persons who sought refuge in 
the hills of East Timor are now starting to return to Dili as 
security permits.
    When we were there on day 2, it was virtually an empty 
city. Dili used to have 130,000 people. It was virtually empty, 
except for the military presence. Now, I understand people are 
coming back in the tens of thousands. The U.N. agencies, 
nongovernmental organizations, and INTERFET are working very 
well together under difficult circumstances. I must say that I 
believe that the cooperation that I saw when I was there was 
the best I have ever seen in terms of international, United 
Nations, NGO coordination.
    A part of this was because many of them had gone to Darwin, 
evacuated to Darwin. They were there to plan how they were 
going to come back into East Timor. They are very well-
coordinated and working closely with INTERFET. However, 
thousands of displaced persons still remain beyond relief in 
Eastern Timor.
    We have no evidence of starvation at this point, but there 
are clearly people who are in vulnerable situations. The World 
Food Program has been conducting food drops with U.S. 
Government support. However, food drops, as you know, can only 
reach a small proportion of those individuals in need. The 
relief agencies now are planning to begin to move by helicopter 
and truck to areas where security permits.
    I would like to speak for a moment about West Timor, where 
we also spent 2.5 days. We face a different humanitarian 
challenge in West Timor. While the numbers are not precise, 
there may be as many as 230,000 displaced persons in camps in 
West Timor, as well as in churches, communities facilities, and 
host families. It averages out to about \1/3\, \1/3\, and \1/
3\, a third in the camps, a third in host families, and a third 
in various churches and school facilities. These innocent 
people sought refuge or were forced to leave East Timor as the 
result of the brutal anti-independence campaign of intimidation 
perpetrated by the militia gangs, which the Government of 
Indonesia did not or could not contain.
    In fact, there are credible reports, as Harold Koh has 
mentioned, that in many instances the militia were actually 
acting in concert with the Indonesian armed forces. Conditions 
in the make-shift camps in West Timor are very difficult. 
Civilian authorities are making efforts to provide food. There 
is little evidence of serious material needs.
    However, requirements for water, sanitation, and health 
services will intensify with the onset of the rainy season. I 
went to four different refugee camp locations while I was 
there. I must say, the material needs are not what is the most 
pressing. What they need is security, and what they need to do 
is to be free of the intimidating environment in which they are 
living.
    The human rights activists with whom we met on our mission 
in West Timor told us of harrowing stories of militia running 
rampant in the camps at night, of Indonesian army and police 
forces standing by while armed thugs in camps forcibly 
recruited young men, kidnaping others, and even murdering with 
impunity. We cannot verify those stories.
    This is going to have to be the responsibility of the human 
rights inquiry and Harold Koh's mission as well. These reports 
came to us from very many different sources and really need to 
be followed up. In every humanitarian crisis, host governments 
have the key role for providing for security and safety of 
their citizens or those who seek refuge in their country.
    The Indonesian Government is aware of its obligations. The 
civilian side appears to be trying to care for and provide for 
the camp residents. On our mission, we were accompanied by the 
Minister of Social Welfare, Justika Baharajah, who is working 
hard to ensure that water, sanitation, food, and shelter are 
provided.
    In other respects, the Government is also making the right 
statements. We do not know if they are making the right 
commitments. They have assured us, for example, that they would 
not resettle camp residents immediately in West Timor or to 
other islands as some have suggested they would. This is in 
contrast to some of the statements that early on there was a 
forced trans-migration to other islands.
    We could not find any validation of that from any of the 
NGO's or assistance workers. The Government also told us, and 
repeated on Jakarta television and in the newspaper, that the 
Government would permit and facilitate returns to East Timor 
for all who wished to do so. The coordinating Minister Haryono 
told us that the Government would begin this week a public 
information campaign explaining to all who fled from East Timor 
what their options would be: To resettle permanently in 
Indonesia, to return to East Timor, or to stay temporarily in 
West Timor and return at some later date.
    Last week, President Habibie committed to allow the U.N. 
High Commissioner for Refugees to have access to West Timor and 
to setup field offices in Atambua and Kupang. The UNHCR advance 
team arrived in Kupang yesterday to begin setting up these 
offices and the UNHCR also traveled to Atambua.
    These are encouraging steps, but the Government must 
continue to provide effective cooperation. In addition, we 
believe that the Government should allow the International 
Committee of the Red Cross in West Timor to exercise fully its 
mandate and assume responsibility for initiating tracing 
procedures to reunite families torn apart in the conflict.
    As you have seen in the reports, almost all of the camps, 
except those that with a strong militia presence, are almost 
all women and children. The men are not there. Only time will 
tell whether the Government can or will deliver on these 
commitments. In the meantime, conditions in the camp remain 
tenuous.
    The International Humanitarian Community should have full 
access to the camps. The Government and the Indonesian army 
must ensure not only safe access by relief workers, but also 
the safety for the refugees. For this reason, we have called 
upon the Government to ensure the civilian character of the 
camps. That the militia must be disarmed and removed from the 
camps.
    Access to the camps by international organizations and 
NGO's is absolutely essential. We spent a lot of time trying to 
convince local authorities of the seriousness with which the 
international community takes the welfare of these people. We 
also stand firm on ensuring that those who would violate the 
fundamental rights of camp residents know that they cannot act 
in secrecy and with impunity.
    As I expressed directly to my Indonesian hosts, and as 
Secretary Albright, Secretary Cohen, and our Ambassador in 
Jakarta have stressed repeatedly, the camps must be off-limits 
to armed militias of any and all political persuasions. The 
refugee population in the camps represents no threat to outside 
forces, but organized groups within the camps do present a 
danger to fellow refuges.
    We also must be prepared to facilitate the return of 
refugees to the East, under the auspices of the UNHCR. At 
present, it is not possible to determine how many may want to 
repatriate. We are encouraged that the Indonesian Government is 
setting forth a policy of repatriation and that they will 
coordinate with the UNHCR.
    We will stand ready to fund the safe passage back for those 
who wish to return, and we will make every effort to help 
returnees reestablish their livelihoods with time to plant in 
advance of the rainy season. Failure to succeed in the next few 
weeks will force people to remain in uncertain and insecure 
areas at the mercy of the militias or in a state of complete 
dependence on humanitarian aid for another year or more. We 
must not fail.
    For those desiring to stay in West Timor rather than 
repatriate to East Timor, they must do so voluntarily and we 
will assist them through NGO's. In closing, let me just say 
that our attention is clearly focused on the humanitarian needs 
of the displaced and affected populations in East and West 
Timor.
    We are participating as a Government in the multinational 
force, which is the international communities best hope for 
ending the humanitarian crisis, restoring security, and 
ensuring that the will of the East Timorese people prevails. 
The U.S. Government has provided $10 million, primarily, 
through aid to support humanitarian needs.
    Yesterday, the State Department announced an additional 
contribution from my Bureau of $5.1 million to support UNHCR, 
ICRC, the World Food Program, and the U.N. Office for the 
Coordination of Humanitarian Affairs. These are initial 
investments. With the new fiscal year, no doubt, we will be 
making more.
    In closing, let me thank you for your attention, your 
sustained attention, on these issues. This is a very complex 
situation. The role that our Office, the State Department, and 
I are playing in this is on the humanitarian side, making sure 
all donors are aware of their obligation to undergird the 
international efforts that need to be made, to work with the 
NGO's, and to keep all due pressure on the Government of 
Indonesia to allow the access, allow repatriation, and to allow 
these people to go back home in safety.
    Thank you very much, sir. I will be happy to answer any 
questions.
    Mr. Smith.  Secretary Taft, thank you very much. Secretary 
Koh, thank you very much for your excellent testimonies. I have 
a number of questions. I will ask a few, submit some for the 
record, and then yield to my colleagues.
    On Tuesday, and you made some reference to this, Foreign 
Minister Alatas said that Indonesia will allow the UNHCR and 
the International Committee for the Red Cross to visit West 
Timor. How much access has there been. Have we actually seen 
people on the ground get in?
    Ms. Taft.  As of yesterday, the UNHCR did send its teams 
in. This morning I called the Governor of West Timor, Governor 
Tallo, to find out whether or not he actually allowed them 
inside the camps. He said they were allowed in the camps. That 
they were proceeding on this.
    He said, ``my Central Government has said these people are 
going to be repatriated and we must do everything right away''. 
I said, yes, sir, you have to do it, but you have to do it 
through the UNHCR. So, they have the message. They have started 
the campaign.
    Our challenge is to make sure that the UNHCR really does 
get confidential and expansive access to all of these people so 
that there is no intimidation in trying to identify who would 
like to be repatriated.
    Mr. Smith.  Unfortunately, we had invited a representative 
from the Department of Defense. Either through scheduling or 
for some other reason, they did decline. Perhaps you can shed 
some light on this. When Assistant Secretary of Defense 
Franklin Kramer, testified before our Subcommittee in July 
1998, I had asked him a number of questions about the JCET's 
Program, the military-to-military cooperation.
    His answer was that, ``By helping to professionalize the 
Indonesian armed forces, we can help reduce human rights 
abuses.'' Obviously, this optimism was unwarranted, in light of 
the deliberate and widespread violence that has been 
perpetuated by the Indonesian military in East Timor, and 
reports that we had even then.
    We had people like Pius Lustrilanang come and testify 
before the Committee. He talked of the torture that he endured, 
what he believed to be, at the hands of KOPASSUS. He woke up. 
He was blind-folded, heard reveille every morning, knew that he 
was at a military base, as he was being beaten each and every 
day. He testified, as did other advocates of human rights 
organizations, that the U.S. ought to cease its cooperation 
with this military until that time there was a cessation to 
that kind of abuse.
    We also understand, as one of our witnesses today, Alan 
Nairn, will testify, that Admiral Dennis Blair, U.S. Command-
In-Chief of the Pacific was dispatched to meet with General 
Wiranto on April 8th in the wake of escalating violence, such 
as the massacre of the church in Liquica in Timor 2 days 
earlier.
    According to Nairm, rather than telling Wiranto to shut the 
militias down, Blair instead offered him a series of promises 
of new U.S. assistance. He writes that Indonesian officers took 
this as a green light to proceed with the militia operation. Is 
that report accurate?
    Ms. Taft.  There are a lot of reports, a lot of rumors, and 
a lot of misinformation, and disinformation. I do not know how 
to confirm or deny any of those comments. My suggestion is that 
you write the questions down. We will make sure that the 
Defense Department has an opportunity to respond to them.
    I do know that the JCET students have been withdrawn from 
classes in the United States. I cannot comment on what Blair 
said. I do want you to be aware, however, that Secretary Cohen 
has been in the region. He did meet with Wiranto. He has issued 
a very strong statement, which we can have submitted for the 
record. This is all annotated.
    Ms. Taft.  Basically, he warned General Wiranto that the 
military of Indonesia is at a critical turning point and urged 
them that they permit and participate openly in assisting on 
the humanitarian side. He has made these comments to the press, 
to the General, and to all with whom he has spoken.
    I would like to have his statement submitted for the 
record, too, which I think you will find very good.
    [The statement referred to appears in the appendix.]
    Ms. Taft.  We have also been meeting with the military to 
find out what they can do to enhance the humanitarian response 
here and they are certainly seized with this.
    Mr. Smith.  Not to belabor the point, but we have had 
hearings in this Subcommittee, which were totally bipartisan. 
My friends on the other side of the aisle were equally 
vociferous in their concerns about our training of KOPASSUS, 
the sniper training, and some of the other kinds of training 
that occurred.
    Our hope was that until there was a clean bill of health, 
with regard to the Indonesian military, that we would not have 
anything to do with them. It seems to me that we may be doing 
some of the right things now. I am very grateful for that. I am 
encouraged by that. Many of us saw, maybe not this kind of 
massive killing, but we saw this kind of outrage on a smaller 
scale in Irian Jaya, in Aceh, as well as in East Timor, as well 
as in Jakarta itself.
    I would hope that all of us would collectively learn that 
when you train forces that have notorious human rights baggage 
and abuse affixed to them, you feel the problem. The 
Australians apparently just picked up a number of KOPASSUS 
soldiers in East Timor carrying their identification cards. 
They could have been people who we trained.
    We do not know that. I have asked that question of the 
Defense Department. Who is it that we have trained? Where is 
the list of trainees and what they went on to do or become? I 
was told we keep no such lists. So, they indeed could be some 
of the people who are now in East Timor. So, hopefully we can 
get to the bottom of that. I hope we have learned that lesson.
    Again, I think it was in the Washington Post not so long 
ago, maybe quite a long time ago, but Secretary Cohen, was 
there at a KOPASSUS meeting. There were these members of that 
so-called elite military unit with scorpions on them showing 
how macho they were. These people have turned out to be thugs. 
Many of us thought it. We thought we knew it. The human rights 
community raised many red flags about that for quite a long 
time.
    Regrettably now, it is coming home to roost. I would hope 
that we could get a response back from the Administration on 
this because it is very, very important. I do have a question 
about the targeting of Catholics. There are numerous reports of 
deliberate killings of Catholic clergy and religious workers in 
East Timor by militiamen and by members of the Indonesian 
military.
    This past Sunday, nine Catholic workers, including nuns, 
deacons, and seminarians were massacred in Bacau by retreating 
troops. What does the U.S. know? What do we know about the 
deliberate targeting of Catholic Church workers and clergy? Mr. 
Koh.
    Mr. Koh.  Mr. Chairman, as you know, we have submitted our 
report on religious freedom, which covers all of the countries, 
but has focused on this issue. I understand you are having 
hearings with Ambassador Robert Seiple, which would give a 
broader context to that issue.
    You are correct that, as we pointed out in our statement, 
that we have confirmed that nine religious officials and staff, 
accompanied by a journalist, were murdered while driving in a 
vehicle between Los Palos and Bacau in East Timor. Obviously, 
we do not know the motivation or orders behind that. Looking 
into that incident will be one of the things that I will be 
focusing on when I visit East and West Timor in the next few 
days.
    Mr. Smith.  I appreciate that. It is important, I think, 
for us to know and for everyone to know whether or not these 
are indigenous East Timorese or this is an orchestrated 
crackdown by the Indonesian military who use militias as the 
front. In terms of H.R. 2895, does the Administration have a 
position on that legislation?
    Ms. Taft.  I do not think so.
    Mr. Smith.  Could you provide that for the Committee as 
soon as possible? The hope is that we can move on that. If 
there is input, obviously all of us would like to and know what 
the Administration would like to do.
    Ms. Taft.  We will get back to you.
    Mr. Smith.  Let me yield to my good friend and colleague 
from Georgia.
    Ms. McKinney.  Thank you Mr. Chairman.
    Assistant Secretary Koh, in your testimony you suggest that 
we support the establishment of a U.N. Commission of Inquiry. 
Could you tell me what the difference is between a Commission 
of Inquiry and the establishment of a tribunal?
    Mr. Koh.  Yes. A Commission of Inquiry is a process which 
has been used on a number of occasions with regard to Bosnia 
and Rwanda. What was unusual in this case is that the U.N. 
Human Rights Commission in Geneva, which ordinarily gathers 
every March for about 6 weeks, held a special session to 
consider the question.
    That session was called by a very close vote at the request 
of Mary Robinson, the United Nations High Commissioner for 
Human rights. It had two key operative paragraphs. The first 
called for the International Commission of Inquiry, which would 
have a standing jurisdiction to gather facts. A commission can 
be the first step on the way to a tribunal or it could 
undertake full-scale investigations.
    The view was that it should have international legal 
experts onboard, particularly those from Asian backgrounds who 
would be familiar with human rights conditions in the region.
    The second operative paragraph of note is one which called 
for the various thematic rapporteurs that are already 
commissioned by the U.N. Human Rights Commission, including 
arbitrary detention and extra-judicial killings, to visit East 
Timor.
    They plan to do so as a group. So, in a way this group of 
thematic rapporteurs going in together perhaps to file a joint 
report will be another kind of international body. My own visit 
will be undertaken from the perspective of someone outside the 
system looking at the reports, getting to the bottom of what is 
going on.
    As I think the Chairman correctly noted in his opening 
statement, we have heard many reports. We do not know how high 
the numbers are. We do not know who is responsible, which means 
that we have to do some full-scale examination of what the 
truth is and then take the evidence where it leads.
    Ms. McKinney.  So, was there a Commission of Inquiry prior 
to the establishment of both the Rwanda and Yugoslavia 
Tribunals?
    Mr. Koh.  In the Yugoslavia Tribunal, Professor Basieuni of 
DePaul University was a key member of that Commission, which 
gathered a massive amount of documentation which was then 
turned over to the Bosnian War Crimes Tribunal.
    Indeed, it was the very output of that Commission, which I 
think created the conviction among the Security Council Members 
that there needed to be a War Crimes Tribunal. That was formed 
under Security Council mandate. The Commission documents are 
very, very massive and have been widely examined.
    Ms. McKinney.  My next question is about a choice of words. 
I recently viewed, for a second time, a BBC documentary on the 
Rwanda Genocide. I watched as Christine Shelly, the State 
Department spokesperson, was painfully tortured in her exercise 
to try and describe why acts of genocide in the Rwandan context 
were not actually, did not constitute, genocide. She did not do 
a good job, of course.
    President Clinton goes back several years later and 
apologizes and says that we just did not understand what was 
happening in Rwanda at the time. We have had 25 years to 
understand what has been happening in East Timor. And 200,000 
East Timorese have died, some through starvation.
    Are we using the word ``genocide'' or are we still hooked 
on ``acts of genocide'' to describe what is happening in East 
Timor?
    Mr. Koh.  As you know Congresswoman, genocide has both a 
legal definition as a part of the 1948 Convention on Prevention 
and Punishment of Genocide, which the U.S. ratified in 1986, 
although it remained unratified for a long period of time. It 
also has a popular political connotation growing out of the 
holocaust.
    Then the question is how should it be extended to other 
circumstances? As you well know, the notion of genocide in 
political terms is something that I think people carefully 
evaluate the parallels and then use that term. For the Genocide 
Convention, that includes acts of incitement to genocide and 
genocide in part, which means elimination of people based on 
their ethnic or religious or racial background in part.
    I think one of the complicating factors is that as a legal 
term, there may be acts that fall under the Genocide Convention 
and hence have a legal significance, which you would not think 
of as genocide in a political sense.
    Ms. McKinney.  So, 200,000 people dead from starvation, 
massacres, and torture and we call that ``acts of genocide?''
    Mr. Koh.  That is both a legally and politically correct 
definition of what went on.
    Mr. Faleomavaega.  Will the gentle lady yield?
    Ms. McKinney.  Yes.
    Mr. Faleomavaega.  I just wanted to note that I believe it 
was after Milosevic had killed over 250,000 Slovenians, 
Bosnians, and Kosovars throughout Yugoslavia that our President 
made a declaration that this man was committing genocide.
    Another ironic thing that I think most people do not 
realize is that Milosevic was duly elected President by the 
people of Serbia.
    Mr. Smith.  Thank you. If you do not have any more 
questions, then we will go ahead and go to the Representative 
from American Samoa.
    Mr. Faleomavaega.  Thank you, Mr. Chairman.
    Again, I want to thank Secretary Koh and Secretary Taft for 
their statements. I would like to say that I have to personally 
congratulate President Habibie for his courage, despite all of 
the opposition against holding this referendum. I have to give 
President Habibie credit for allowing the people of East Timor 
to go through the referendum, the exercise.
    The problem I have is that when the crisis occurred after 
the election, the first thing that came out from our own 
Government representative and Secretary Cohen, as I recall, 
immediately was the response ``No U.S. troops in this crisis in 
Asia.'' Then the next thing I hear, through the media, that the 
President's National Security Advisor, Mr. Berger, likened the 
East Timor crisis to how messy his daughter's room is in 
college.
    Of course, later Mr. Berger apologized for making that 
remark, which tells you exactly the sense of indifference of 
some of the top leaders of our own Government. It is an Asian 
thing. It is not a global issue affecting human beings. Then 
some other officials of our Government said, ``East Timor is 
not Kosovo.''
    Then the Chairman of the Joint Chiefs of Staff of our 
Government calls up General Wiranto because they are good 
buddies. They are friends. Over the years, this is how the 
relationship has been between our military leaders and the 
military leaders of Indonesia.
    I do not know if it had any effect about General Wiranto's 
decision making, but the fact of the matter is these militias 
were also a part of the military might of the Indonesian 
Government. You cannot change that. Why do you suppose the 
Indonesian army or General Wiranto just could not tell his 
troops to leave or even to shoot these militias? Because they 
are their own people. It is quite obvious.
    Mr. Chairman, I have some questions here. Mr. Horta 
recently, in a television interview, stated that these 200,000 
East Timorese are now currently in West Timor. These refugee 
camps are currently being supervised by the militias or 
elements of the militias. I would like to ask Ms. Taft, is this 
true?
    Ms. Taft.  They are present. At the camps I saw, they were 
present, yes, sir.
    Mr. Faleomavaega.  Have you offered any strong, strong 
recommendation? Obviously you mentioned early in your 
statement, they are still being intimidated by the militias.
    Ms. Taft.  That is right.
    Mr. Faleomavaega.  For all we know, these 200,000 people 
are still being massacred, murdered, or disappear, yet our 
whole focus in the media and the international community is on 
the troops going to East Timor, with hardly any mention about 
these 200,000 refugees, that are being intimidated by the 
militias.
    Ms. Taft.  I am glad you mentioned that because that is the 
whole reason we went so quickly as a multinational humanitarian 
group. You are right. The attention was on the troops. The 
attention was on the politics. We were concerned about who is 
focusing attention on the humanitarian dilemma. To be able to 
mobilize this and get out there so quickly because we were on 
the ground starting to work on September 19th with our 
representatives.
    Preceding us by 2 days was Mrs. Ogata, the U.N. High 
Commissioner for Refugees who was on the scene and working with 
the officials.
    Mr. Faleomavaega.  Ms. Secretary, I know, because my time 
is going.
    Ms. Taft.  OK.
    Mr. Faleomavaega.  Is it also true that none of the 
international NGO's that do humanitarian services are allowed 
by the Indonesian government to help in these refugee camps?
    Ms. Taft.  There are a number of agencies in West Timor.
    Mr. Faleomavaega.  But very limited.
    Ms. Taft.  They are working with host families, some of the 
churches, and the outside groups. What they have not been 
allowed to do is work in the collective camp areas. That is 
because the civilian authorities have said that it is unsafe 
for them to have access.
    We pressed them very hard on that. We said, make it safe. 
Make the military make it safe. Get the militia out. Get the 
camps civilianized. We said that. Mrs. Ogata said that. 
Secretary Albright has been making that point as well.
    Mr. Faleomavaega.  Secretary Taft, will it be your 
recommendation, in the strongest terms, that the President has 
got to make a decision about this situation, where the militia 
is still supervising and operating these refugee camps? This is 
ridiculous.
    Ms. Taft.  What President are you talking about?
    Mr. Faleomavaega.  Our own President.
    Ms. Taft.  Our own President.
    Mr. Faleomavaega.  Can we do something about this?
    Ms. Taft.  Our own President expressed concern about this. 
We are doing everything we can. We are not sending--if you are 
suggestion is that we try to send in peacekeepers into West 
Timor to breakup these camps, that is news and you should talk 
to the Armed Services Committee about it.
    Let me just say that because it is very difficult in these 
situations, and we do not want to have a repeat of what 
happened with the Hutus in Eastern Zaire and all of the 
problems we had with the militias and the refugees there in 
1994, which you know so much about, Congresswoman.
    We need to get those people out. The way we get them out is 
to get a system for them to repatriate and to get access by the 
U.N. High Commission for Refugees, by the ICRC into those camps 
as soon as possible to fully do the interview and the out-
placement. We have commitments from the Government to allow 
that to happen.
    There are people from the U.N. on the ground now trying to 
work those modalities. I am sure we are going to see within the 
next several days good progress. Everybody is focusing on this. 
Security and protection are the key issues.
    Mr. Faleomavaega.  Reclaiming my time.
    Our biggest reason for sending troops to East Timor was 
security. Now, 200,000 refugees are now in West Timor and we 
are not talking about their security needs. I know you have 
expressed concern. I know you brought recommendations.
    What I am concerned about is that this is just a lot of 
rhetoric. Somebody has got to make a decision. I was just 
curious if our country has made a firm decision to the 
Indonesian Government that they have got to do something about 
this.
    Ms. Taft.  Yes, sir. We have said this.
    Mr. Faleomavaega.  How long do you think we are going to be 
put on hold, another 10 days, another 30 days before they 
finally allow us to bring NGO's to help feed the people?
    Ms. Taft.  Today, it is starting. I have talked with them. 
Starting today, they are getting access. Now, there are not 
ships in place to take them from Kupang back to East Timor.
    Mr. Faleomavaega.  You mentioned earlier that we are 
putting in about $15 million in economic assistance.
    Ms. Taft.  No, humanitarian assistance.
    Mr. Faleomavaega.  Have you calculated approximately what 
would be the total need to give proper assistance, to these 
refugee camps? Is it $15 million or $100 million? What do you 
see as a good number to give proper assistance to these people?
    Ms. Taft.  The U.N. has done its initial preliminary 
assessment for East and West Timor. They say $134 million is 
what is required for the humanitarian first traunch. We have 
given $15 million in the last week. As soon as we start the 
next fiscal year, we are going to get more.
    Mr. Faleomavaega.  One more question, Mr. Chairman. I know 
my time is up. It is ironic. The second most powerful economic 
country in the world, who happens to be in Asia, the country 
that has the largest investment in corporate resources 
throughout Asia, happens to be Japan. Is our Government putting 
any pressure on Japan to contribute at least $100 million out 
of the billions and trillions of profits that they have made in 
the Asian region to give assistance to East Timor?
    Ms. Taft.  They are being forthcoming in their funding. 
They participated in our humanitarian mission. They are coming 
up with humanitarian funding. I understand they are going to 
make contributions to the Trust Fund for East Timor as well.
    Mr. Faleomavaega.  Thank you.
    Mr. Smith.  Thank you, Mr. Faleomavaega.
    Mr. Koh.  If I could just add that I have just been at the 
U.N. General Assembly. An extraordinarily large number of the 
bilateral meetings and the multilateral meetings addressed this 
question with our Government, we urged various allies to make 
contributions to address the total need, both in bilateral 
discussion with the Japanese Foreign Minister, Mr. Komorah, and 
also in various multilateral settings of regional ministerial 
breakfasts and other discussions. These issues were discussed 
at great length.
    Mr. Tancredo [presiding]. Thank you very much.
    The panel is supposed to be here just until 2 p.m. I know 
that there are other questions from our members of the 
Committee. I am going to try to move to enforce the 5-minute 
rule. Let me ask you just one question quickly, Secretary Koh.
    There have been reports in the Indonesian press recently 
about Australian peacekeeping forces that are allegedly 
committing human rights violations themselves in East Timor. I 
just wanted to know quickly what your impression is of the 
accuracy of those reports.
    Mr. Koh.  We have heard those reports. We have absolutely 
no basis to think that they have any substance whatsoever. We 
are very concerned, in fact, about public disinformation in 
Jakarta over what is happening with regard to the multinational 
force. That is one of the messages I am going to be reinforcing 
when I visit in the next few days.
    Mr. Tancredo.  Thank you. Mr. Delahunt. Do you have 
questions?
    Mr. Delahunt.  Listening to your testimony, Mr. Koh, in 
response to a question by Ms. McKinney regarding the tribunal 
as pre-cursor, or rather the Commission of Inquiry as a pre-
cursor to an ad hoc tribunal. I was thinking as you were 
responding, that if there has ever been a situation that 
demonstrates so clearly the need for a permanent international 
criminal court, it is exactly what has transpired here in East 
Timor. I would encourage you and Secretary Taft to reflect, 
continue discussion within the Department of State about the 
Administration's position on the international permanent 
criminal court.
    It is, I think, indeed unfortunate that the United States' 
position has been in opposition to an international criminal 
court that could address these issues on an ongoing basis, and 
may very well, have served as a deterrent to what occurred in 
East Timor.
    Regarding the question that was posed by Mr. Tancredo on 
the press reports about the Australians. On their face, they 
are absurd. They are insulting. The comment and observation 
that you made, Secretary Taft, about this also implicating or 
our need to support the transition to democracy in Indonesia, I 
would suggest that those reports are clear evidence of a very 
difficult trip, this odyssey, to true democracy in Indonesia.
    It seems like nothing really has changed since the days of 
Suharto and Sukarno. In any event, I want to get back to a 
point that other members have raised regarding the military-to-
military relationship. I understand that there is a lot of 
uncertainty, misinformation, disinformation.
    I would like to speak to the issue of the militias. Is 
there any legal basis for the militias, within the Indonesian 
legal system? For example, and I am sure that you are both 
aware that at a point in time in Columbia, there was legal 
authority for the existence, if you will, for para-militaries. 
What later became to be known as para-militaries.
    That law was rescinded. Unfortunately, para-militaries 
continue to exist and cause great problems in Columbia. If you 
can, describe, if you are aware, is there any legal basis for 
the existence of these militias?
    Ms. Taft.  It is my understanding that there was, if not a 
written legal base, a practice of having militias in East 
Timor, but not in West Timor. This distinction was drawn to our 
attention when we tried to find out who were these militias 
around West Timor? Were they all East Timorese or were they 
disaffected West Timorese that were unhappy about the influx of 
people from East Timor?
    So, there is a distinction. I think what I would recommend 
is that we arrange for a roundtable discussion some people from 
the military and from the State Department to talk with you all 
about this.
    Mr. Delahunt.  I do not want to presume motive, but I was 
very disappointed to hear that there is not a representative of 
our military here, given the quotes that Chairman Smith and 
others, including myself, have alluded to about the position of 
our military regarding the training of military in Indonesia in 
here, and not having the names and lists of those available.
    They certainly did not do a very good job in the area of 
human rights training. That is, so clear that it cries out for 
an answer. What I am concerned about is that this calls in to 
question the entire program, not just as it relates to 
Indonesia, but in terms of all our military-to-military 
relationships, and really deserves to be reviewed and 
scrutinized.
    We should have answers. I think from what you have heard 
here today, this is a bipartisan concern. It is not too long 
ago that the President of the United States went to Guatemala 
to apologize for what occurred over a period of time, and in 
response really to a report that was under the aegis, as you 
know, of the United Nations in implicating the United States in 
a genocide that occurred there over a period of decades. We 
trained that military. I dare say the same thing has occurred 
in Indonesia.
    Mr. Koh.  My response to the points made by Congressman 
Delahunt on the military-to-military relationship and democracy 
in Indonesia. The two are very much connected. I have visited 
Indonesia twice in the time that I have been in office. 
Although they are not where you want them to be, this is a time 
of tremendous change, and in Indonesia the first free election 
in many, many years.
    The difficulty will be to make that democratic transition 
happen to bolster civil society and to bring the military under 
civilian control. That is the key. The military is a very 
powerful institution in Indonesian society and has been very 
resistant to change. We take for granted in this society that 
the military is under civilian control.
    It is not something that has been taken for granted in 
Indonesia. That is a very difficult thing to change. The 
militias then operate under this shady mandate, as you see. 
This is a very difficult thing on which to get a hold. I think 
the critical goal is to keep the democratic process moving in 
Indonesia, focus on the horrors that have occurred in East 
Timor, while moving toward and promoting independence in East 
Timor at the same time.
    It is a very complicated juggling act, and one that I think 
requires a lot of working together creatively. I do think it is 
a very difficult and complicated situation.
    Mr. Delahunt.  Thank you very much.
    Mr. Tancredo.  Mr. Lantos.
    Mr. Lantos.  Thank you very much, Mr. Chairman.
    I want to apologize to our witnesses. We have a 
simultaneous hearing on the human rights situation in Togo just 
across the hall. That is why I could not be with you. I want to 
commend both Secretary Koh and Secretary Taft for their 
outstanding work on this issue as indeed on so many other 
issues.
    I have two specific observations. I would be grateful for 
your comments. I am putting the finishing touches on a 
Congressional resolution which calls on the Government of 
Indonesia to accept full financial responsibility for the total 
cost of destruction that has unfolded in East Timor.
    My resolution calls for the total cessation of all aid and 
loans by international organizations and on a bilateral basis, 
until the Government of Indonesia accepts full responsibility 
for the financial cost of rebuilding and reconstructing East 
Timor. It is preposterous beyond belief that the Government and 
the military of Indonesia acquiesced in, encouraged, or even 
participated in the deliberate destruction of the 
infrastructure and the whole physical capital of the eastern 
part of that small island.
    We cannot bring back to life the people who have been 
killed and the human job of rebuilding the large numbers of 
people with enormous traumas will be a long, difficult, and 
expensive one. We certainly can fix the responsibility for the 
physical reconstruction on the Government of Indonesia.
    I would like to either ask you to comment on what the 
Administration's position will be or if there is no position 
yet, to convey the substance of my resolution to Secretary 
Albright, with whom I had the pleasure of talking yesterday on 
another issue. So, we will know that the Administration is in 
tuned with us. My resolution will have a great deal of 
bipartisan support.
    The second issue I would like to raise relates to Japan. My 
good friend and distinguished colleague from American Samoa 
raised the question of Japanese financial participation. I am 
preparing a letter, and I am inviting all of my colleagues to 
co-sign it, to the Prime Minister of Japan calling on Japan to 
at long last accept its full responsibility, not just in a 
financial sense, of participating in United Nations' 
peacekeeping efforts.
    I remember the Second World War. I understand the problems 
Japan had in terms of its military aggression against the 
countries of Southeast Asia. We are now half a Century beyond 
that. If German military units can be in the former Yugoslavia 
and they are, and they are conducting themselves with great 
distinction and great effectiveness, I think the time is long 
overdue for Japan to assume its military responsibility in 
peacekeeping operations, such as the one in East Timor.
    I find it unconscionable that countries as far away as the 
United Kingdom should provide military units for the 
peacekeeping venture in East Timor, while Japan, the largest 
country in the region with a very capable military, should not 
even debate or consider the notion of sending an appropriately 
sized Japanese military unit to take its place alongside the 
Australians and the others who have accepted their 
responsibility.
    I would be grateful if either of you would care to comment 
on my call for Japan to recognize that the Second World War is 
a half a Century behind us. The time has come for Japan to 
accept her international responsibility, and to recognize that 
Japanese ambitions to become a permanent member of the United 
Nations' Security Council sound absurd while Japan runs away 
from its responsibility in peacekeeping ventures.
    Mr. Tancredo.  I may ask the panel, please, to condense 
your answer as much as possible, as we have another panel 
waiting out there. They can only be here until 3 p.m.
    Mr. Koh.  With regard to the first point, Congressman 
Lantos, as you know we have been doing an ongoing aid review 
with Indonesia for a number of weeks. As Secretary Albright 
made very clear on Sunday night, we will include the following 
factors in our review, namely, whether secure environments were 
created in the West Timor camps, whether necessary services 
were provided, whether East Timorese who want to return home 
are allowed to do so, and whether the Indonesian military is 
preventing West Timorese militias from carrying out attacks. in 
East Timor. We will convey the basis of your resolution to the 
Secretary and carefully study the details in reviewing 
reconstruction assistance. With regard to the second issue 
about the allegations of Japan, as you know, in another life, I 
have studied Japanese Constitutional Law. The German 
Constitution and the Japanese Constitution do have different 
wording in their provisions.
    While we make our political views clear at the time in 
which the Japanese are seeking expansion and participation into 
the Security Council, which was one of the points of discussion 
between the Secretary and the Japanese Government at the U.N. 
General Assembly. They also make reference to Constitutional 
issues that those obligations incur. I am sure that, that will 
force reconsideration and examination inside the Japanese 
Government.
    Mr. Lantos.  Thank you, Mr. Koh. Thank you.
    Mr. Tancredo.  Thank you very much.
    I want to sincerely express the appreciation of the 
Committee to the Administration's witnesses and ask any other 
members of the Committee if they have other questions to submit 
them. Again, thank you very much for your time.
    Mr. Koh.  Thank you.
    Ms. Taft.  Thank you.
    Mr. Tancredo.  I would like to bring up the second panel as 
quickly as possible.
    Xanana Gusmao is the President of the National Council of 
the Timorese Resistance, a leader of the East Timorese 
Independence Movement. For the past 20 years, Mr. Gusmao was 
arrested by the Indonesian military in 1992 and sentenced to 
life in prison for subversion. In response to an international 
outcry, Indonesia reduced the sentence to 20 years in 1994.
    Mr. Gusmao can take a seat.
    The Chairman of this Committee met him when he was in 
prison. Even in that difficult situation, it was clear that he 
was a statesman, a conciliator, and a leader. His country is 
lucky to have him and the world is fortunate that an 
independent East Timor will be lead by someone of his caliber.
    After nearly 7 years in captivity as a political prisoner, 
he was released by the Indonesians earlier this month. Along 
with him, Mr. Jose Ramos-Horta. He is the Vice President of the 
National Council of the Timorese Resistance and was awarded the 
Nobel Peace Prize in 1996, along with Bishop Carlos Belo for 
his efforts toward East Timorese self-determination. An 
outspoken opponent of the Indonesian occupation of East Timor 
for the past quarter Century, Mr. Ramos-Horta has served for 10 
years as the permanent Representative to the United Nations for 
the East Timorese Independence Forces. Welcome.
    Mr. Gusmao, please proceed.

  XANANA GUSMAO, PRESIDENT, NATIONAL COUNCIL OF THE TIMORESE 
                           RESISTANCE

    Mr. Gusmao.  [Via Interpreter.]
    Ms. Interpreter.  Mr. Chairman, ladies and gentlemen, it is 
an honor to be here in the House of Representatives before you, 
in this House, the venue of so many decisions regarding the 
world and East Timor in particular.
    On behalf of the people of East Timor, I wish to express 
profound gratitude for the rulings and decisions taken in this 
House on East Timor. In particular, I would like to express our 
gratitude to all Congress people who played a relevant role and 
supported all the bills aimed at putting an end to violence and 
destruction in the territory.
    Mr. Gusmao.  [Via Interpreter.]
    Ms. Interpreter.  In particular, I would like to express my 
gratitude to Congressman Chris Smith who is hosting this 
hearing, for his leadership in promoting human rights and the 
self-determination of East Timor. I wish also to express my 
gratitude and thanks to all those who, in the House of 
Representatives, supported Congressman Chris Smith in his 
efforts.
    Mr. Gusmao.  [Via Interpreter.]
    Ms. Interpreter.  I also wish to express my gratitude to 
Congressman Kennedy and all of the other Congress people who 
supported his efforts for passing the bills in the House of 
Representatives. My gratitude is also addressed to Senator 
Feingold for his efforts, too, in the passing of the bill in 
the Senate, the East Timor Self-Determination Act of 1999.
    These bills are extremely important for the U.S. banning of 
military and financial assistance to Indonesia. Also in the 
demanding of the withdrawal of Indonesian troops from East 
Timor and putting an end to the violence undertaken by the 
militias in East Timor.
    Mr. Gusmao.  [Via Interpreter.]
    Ms. Interpreter.  Mr. Chairman, ladies and gentlemen, 
please allow me to use this opportunity, this historic moment, 
both for myself and for my people, to address a few and brief 
words on the current situation in East Timor.
    The recent violence, which we all witnessed in the 
territory in the past few weeks, led to a very, very critical 
situation. It is critical because most of the population had to 
seek refuge in the mountains. It is critical because tens of 
thousands of East Timorese were abducted and taken forcibly 
into West Timor.
    It is critical because the population is now experiencing a 
severe situation of disease and starvation. It is critical 
because our families have been broken apart and most of the 
members of those families do not know where their relatives are 
or if they are alive.
    We have decided that the year 2000 in East Timor will be 
the year of the Emergency Plan. During and throughout this 
year, and from the ashes and destruction provoked by the 
Indonesian military and the militias, we will establish an 
administration in the territory and help the population 
organize itself.
    Our population is in great need of assistance, of food, of 
medical assistance, but also of psychological comfort to 
overcome the suffering and the deep trauma that has been 
committed upon it.
    Mr. Gusmao.  [Via Interpreter.]
    Ms. Interpreter.  One of our main concerns at this point is 
the return of the East Timorese population, which is now living 
in a climate of terror and intimidation in the concentration 
camps in Kupang, West Timor; Atambua, West Timor; and elsewhere 
on other Indonesian Islands.
    We urge the Congress to provide assistance and to help 
humanitarian agencies in creating the conditions for the return 
of the more than 200,000 East Timorese who are presently in 
Wast Timor and other Indonesian islands. The East Timorese in 
those concentration camps are undergoing a situation of great 
fear. They do not know about their families. These 200,000 East 
Timorese are mostly women, children, and old people. We request 
immediate support to take them out of these concentration camps 
and to enable the return of these East Timorese's to East 
Timor.
    Mr. Gusmao.  [Via Interpreter.]
    Ms. Interpreter.  Equally important for the transition 
process in East Timor is this second request that I wish to 
address. That is for the Congress to pressure for the 
withdrawal of Indonesian troops from East Timor. The presence 
of Indonesian troops in East Timor has only led to further 
suffering, destruction, murder, and the slaughter of my people.
    I therefore appeal to the Congress to use its moral and 
political strength to enable the withdrawal of the Indonesian 
troops.
    Mr. Gusmao.  [Via Interpreter.]
    Ms. Interpreter.  This is but a very brief picture of the 
situation in East Timor and the suffering of my people.
    Thank you very much.
    Mr. Smith.  [Presiding] Mr. Gusmao, thank you very much for 
your excellent testimony and for the courage that you showed 
under incredible duress in your years in captivity. Joseph 
Rees, Chief Counsel and Staff Director of this Subcommittee, 
and I remember when we met with you, how we had read about you.
    We had heard about you. We had read your words. We had 
never seen you in person, and how impressed we were by your 
courage, and also by your sense of vision that 1 day you knew 
there would be freedom in East Timor. It was a matter of when 
and not if. While the agony continues, the East Timorese people 
could not have a more articulate and more of a persuasive 
spokesman for their cause. I want to thank you for your 
leadership.
    I would like to recognize another man for whom this 
Subcommittee, and Congress, and I, personally, have an enormous 
amount of respect for. A man who has won the Nobel Peace Prize, 
as was pointed out by Mr. Tancredo in his opening, in his 
introduction. Mr. Ramos-Horta, we are very, very pleased to 
have you here.
    When you speak, believe me, we do listen. So, please take 
the floor.JOSE RAMOS-HORTA, VICE PRESIDENT, NATIONAL COUNCIL OF 
THE TIMORESE RESISTANCE, 1996 NOBEL PEACE PRIZE WINNER, AND 
PERMANENT REPRESENTATIVE, UNITED NATIONS, EAST TIMORESE 
INDEPENDENCE FORCES
    Mr. Ramos-Horta.  Congressmen, first I would like to thank 
you very much for your initiative in holding this hearing. I 
thank all your colleagues for receiving us here today, to you 
particularly for your many years of support to the people of 
East Timor.
    I would like to start by saying, emphasizing how important 
the U.S. Congress has been over the years in attempting to 
right the wrong, the tremendous wrong that was done to the 
people of East Timor. If ever we, over the years, felt 
disappointed or loss of hope because of the indifference of the 
world community, every time we came here to this building, to 
the many offices, we went back with renewed hope. Do not 
underestimate the strength you gave us. Do not underestimate 
the influence you have in shaping the events in Indonesia and 
in East Timor. It is thanks to you, to Members of Congress, 
both Houses, that we have come this far.
    I was in Aukland in the midst of the worst crises in East 
Timor. As I watched CNN and watched President Clinton's 
statement, live, which was seen by hundreds of millions around 
the world, when President Clinton said what basically amounted 
to an ultimatum, the Indonesian side must invite, and he 
emphasized the words ``must invite'' the multinational force to 
East Timor to restore order and security. I felt that, that was 
going to be a passing of wills between the President of the 
United States and the Indonesian army leadership. There is no 
way that the West, the authority of the U.S. President could be 
discredited. In conversation with my President over the phone, 
he was still under house arrest in Jakarta. I said, there is no 
way the U.S. can allow the U.S. President to be discredited 
because that was an ultimatum. True enough, 2 days later, 3 
days later the Indonesian side, which had said repeatedly, 
emphatically for many days, that it would not invite a 
multinational force, did indeed invite a multinational force.
    The multinational force is there in East Timor. My point is 
that whenever the U.S. Administration, the Congress wishes to 
provide leadership, be it in East Timor or elsewhere, things 
happen. In saying this, I want first to express my most sincere 
gratitude, our most sincere gratitude to the President, to the 
Administration, to you for your leadership that has turned 
things around in the last few weeks.
    With the multinational force on the ground, the situation 
is improving day-by-day in terms of the security level. The 
Independence of East Timor is now a matter of fact. There is no 
turning back the process that took us 500 years, during 
Portuguese rule and, of course, the last 23 years.
    However, an East Timorese Jesuit Priest, was telling me in 
the midst of the worst crises in East Timor, he was in hiding 
in the darkness of the night, talking on a mobile phone. He was 
telling me, you will return to a country of widows because of 
the extraordinary level of killing in East Timor.
    President Xanana will be going back in the next few weeks. 
He will go back and all of us will go back to a thoroughly 
destroyed country. The first pictures I have seen of East 
Timor, in the last few weeks, reminded me of those black and 
white pictures of Europe devastated in the wake of Nazi's 
Occupation. This is the country we will go back to.
    The country has been thoroughly destroyed: Tens of 
thousands of people displaced, tens of thousands forcibly 
removed from their homes into West Timor where they are 
hostages of the military and the militias. Let us not mistake, 
these displaced persons are not being held by some unknown 
entity somewhere in the jungle, somewhere in the world. They 
are being held in Indonesian territory, in an action that is 
condoned by the state. An institution of the state, the army, 
which is supposed to defend the country from external threats--
or to protect its citizens, is, in fact, an instrument of 
hostage taking, of state terrorism. Not satisfied with the 
destruction in East Timor, the killings in East Timor, they 
take along tens of thousands who are held against their will in 
West Timor, and there are thousands more elsewhere in the 
country. The Indonesian authorities have the ability to return 
these people.
    They have the ability because whenever the pressure was 
there, they made even more difficult decisions. I started my 
comments by saying that when President Clinton stood up and 
said, they must invite the multinational force, they did invite 
them. An invitation of a multinational force was unprecedented 
in Indonesian history.
    If anything went against all the public discourse, if 
anything goes against Indonesian so-called nationalism, that 
was the invitation of the multinational force. He proved that 
there is an authority in Indonesia. That when they want, they 
can make policies. They can make decisions.
    Then why are they not making a decision to disarm the 
militias in West Timor, to allow the United Nations' High 
Commission for Refugees, the U.S. Assistant Secretary of State, 
her office dealing with refugees, NGO's, and humanitarian 
agencies to provide assistance to the people in the camps, and 
return them to their homes in East Timor?
    It is not happening because there is no will in Jakarta to 
do so. They have proven that when the pressure is there, they 
can deliver. We appeal to you, Members of Congress, to use your 
utmost influence, together with the Administration, to secure 
the early return of the East Timorese in West Timor and 
elsewhere in Indonesia to East Timor.
    I would like also to say that never once in our history of 
23 years has anyone heard from our public discourse any word of 
anger, or racial, or ethnic hatred toward Indonesia. Never once 
in 23 years of the Timorese Resistance has any one single 
Indonesian civilian been killed by the East Timorese 
Resistance, even though 200,000 East Timorese were killed by 
the Indonesian army. There was never reprisal.
    There were never soft targets for the Resistance. Despite 
all of the wanton killings of the last few weeks, and our 
repeated statements of moderation, flexibility, we continue to 
hear, to see, a continuation of violence, of provocation, of 
impunity by the Indonesian side.
    In spite of all that has happened in the last few weeks, 
President Xanana, met with the Foreign Minister of Indonesia. I 
must maybe preface this particular event by saying the 
following. When I personally met President Clinton just over a 
week ago, and with Secretary of State Albright last week, I 
said, my mood toward the Republic of Indonesia today is similar 
to the mood of the Jews toward Nazi Germany after World War II, 
or similar to the Kuwait is the mood of the Kuwaities toward 
Iraq after the destruction of Kuwait.
    This was only to say--do not expect us to try to think 
about even engaging the Indonesians in dialogue. That was our 
emotion, but at the same time we realize that we cannot choose 
geography. Together, President Xanana and myself, we went to 
see the Indonesian Foreign Minister Alatas. We had a 
constructive, fruitful dialogue with him the other day.
    We hope that the new Indonesia that is in the process of 
being shaped, following the elections, will be able to repair 
the damage it has done to itself, to East Timor, receive the 
olive branch that Xanana Gusmao and all of us have extended to 
them. One condition for that is a gesture of good will on their 
part, to return all East Timorese forcibly taken to the other 
side.
    As far as our relationship with other countries of the 
region, we are deeply grateful to Australia for taking the 
burden, the leadership of the multinational force. The 
Australian people, as a whole, have been on our side, as have 
many other countries around the world, but also has been--as 
the former colonial partner of East Timor--has shown an 
extraordinary commitment in standing up and living up to its 
historic and moral responsibilities.
    What we see here, Members of Congress, is a truly universal 
movement in support of a small nation. Maybe the tragedy of 
East Timor will turn out to be an inspiration and a strength 
for the United Nations, for the world community, to be always 
inspired to come to the rescue of small nations, no matter 
where they are.
    When it comes to human rights, there is no domestic 
jurisdiction of states. When it comes to human rights, there 
are no boundaries. We are all part of this community of 
nations. Human lives are as valuable anywhere, be it in Asia, 
be it in Africa, Europe, or Latin America. So, what the 
multinational force is doing, they are all of the United 
Nations, is indeed in response to these very sacred principles 
of the universality of human rights.
    I thank you.
    Mr. Smith.  Mr. Ramos-Horta, thank you very much for your 
powerful words and your leadership. I understand that both of 
you will have to depart at 3 p.m. I will restrict my comments 
or questions to just a few of those that I would hope to have 
asked. Hopefully, we can get through the entire panel.
    I do want to concur and reiterate what you said about the 
Australian commitment and how grateful all of us are that 
Australia stepped up to the plate, and was really earnest to 
provide protection for those innocent civilians who were being 
slaughtered.
    I think it is good that we all recognize Australia again 
and again because no one else really was doing the job until 
they took the lead. Let me ask you about peacekeeping. We keep 
hearing militia leaders in West Timor who are making public 
threats to mount an armed insurgency into East Timor to provoke 
what they call a civil war.
    Are we doing enough? Is the international community doing 
enough, Indonesia doing enough, is to mitigate that threat? 
Second, will you just tell us what is it that the international 
community is doing right? More importantly, what needs 
improvement right now?
    I remember, Mr. Ramos-Horta, when you met with me--and I am 
sure you met with many other Members of Congress on both sides 
of the aisle--during a visit months ago and warned of the 
carnage that you felt was imminent if the right steps were not 
taken. Regrettably, insufficient numbers of people heeded your 
call. What now do you see that we need to do forthwith in order 
to preclude additional misery?
    Mr. Ramos-Horta.  It is as a first step, and it is crucial, 
that pressure is there on Indonesia. We have seen that there is 
an authority, whatever it is, that when the crunch comes, when 
their interest is at stake, they respond. We are certainly 
obviously very, very pleased. with the leadership provided by 
the Secretary of State, who made a very forceful statement on 
Sunday with regard to the refugees, the displaced persons in 
West Timor and with the visit by the Assistant Secretary Julia 
Taft to the camps in West Timor. For us, the absolute priority 
at this stage, beyond the security situation in East Timor that 
needs to be stabilized, is the safe return of the refugees, the 
displaced persons in West Timor.
    It is also absolutely necessary that INTERFET be deployed 
more expeditiously. So far, less than half of all of the forces 
committed to INTERFET have been available and have been 
deployed. We are pleased with the roll of the Australian 
command. We are pleased with the progression, but we hope that 
other countries make a greater commitment.
    We were pleased to hear, to read in today's news that the 
United States has committed an additional number of personnel 
to INTERFET, now numbering about 500 from the initial 200 
committed. We are very grateful for that. On the other hand, it 
is necessary that U.S. leadership, the United Nations' 
transition administration in the territory be established as 
soon as possible, because there is a total breakdown of 
services in the territory.
    However, we must also emphasize that as the U.S. and the 
United Nations' transitional team design and execute the 
transition authority in East Timor, they do not lose sight of 
the fact that there is an organization, the National Council of 
Timorese Resistance, which led the people for 23 years, and 
under the flag of the National Council of Timorese Resistance, 
the people voted massively for independence.
    We view the transition in East Timor as a partnership 
between the East Timorese Resistance led by our leader, Xanana 
Gusmao, and the international community. We are pleased with 
the statements by the U.N., that the U.N.--led transition in 
East Timor is not going to be a colonial situation, 
relationship, between the U.N. and the East Timorese people, 
but rather a partnership.
    Mr. Smith.  Ms. McKinney. Thank you very much.
    Ms. McKinney.  Thank you, Mr. Chairman.
    I am humbled to be here with these very brave witnesses. A 
generation ago, men in Washington, D.C. decided that the East 
Timorese should not be free. That access to oil and winning the 
Cold War were more important. Twenty-five years later, 200,000 
East Timorese have been killed by massacre, torture, and 
starvation.
    U.S. policy has supported the continued violation of the 
rights of the people of East Timor. Since 1975, the U.S. has 
supplied more than $1 billion worth of U.S. weapons to Jakarta. 
Even until last week, our Government continued to provide 
support for the Indonesian military.
    Mr. Chairman, mass murderers, torturers, and ethnic 
cleansers should never be our friends, but in East Timor, in 
Latin America, in Africa, sadly, that is our legacy. Saying, I 
am sorry, is not good enough. We must be a part of the 
correction of the problems of the wrongs of the past.
    To our witnesses, I would just like to pledge that I will 
be a part of any movement in this Congress to help set right 
the things that this Government, over the years, has done 
wrong. An independent East Timor will have to struggle for 
self-sufficiency and we should be there with you, with our 
hearts, our heads, and most importantly with our money.
    Thank you, Mr. Chairman.
    Mr. Smith.  Thank you, Ms. McKinney. Mr. Faleomavaega.
    Mr. Faleomavaega.  Mr. Chairman, I realize in the essence 
of time that our good friends have to leave. So, I just want to 
say that it is a deep and a tremendous honor for this Committee 
to have received Mr. Gusmao and Mr. Ramos-Horta, to listen to 
their eloquent statements. I have so many questions I wanted to 
ask, but I realize the shortness of time. All I can say, Mr. 
Chairman, is that as someone who comes from the Pacific, I feel 
a close kinship with these two gentlemen and the outstanding 
leadership that they have demonstrated to the fine people of 
East Timor.
    It is a miracle that these gentlemen are still alive. But 
maybe in a later time period, we will have them testify before 
this Committee to learn more of their experiences and the 
brutality of the Indonesian military. I suspect these 200,000 
East Timorese that died were killed were by M-16 rifles, not by 
AK-47's.
    It is a sad legacy of our government, given the fact that 
our country sells more military equipment than any other nation 
in the world. This is something that should be taken into 
account in the formation of our foreign policy both in the 
short and long term.
    This is the kind of results that we produce. Again, I am 
honored to receive our two friends representing the good people 
of East Timor. Thank you, Mr. Chairman.
    Mr. Smith.  Thank you. Mr. Delahunt.
    Mr. Delahunt.  I would just echo the sentiments expressed 
by my colleagues. On behalf of all of us, let me just simply 
say thank you for your example. Thank you for your courage. You 
have done much, not just for East Timor, but you have done much 
for America with that courage and with that moral authority, 
and being so clear, and forceful, and powerful in terms of your 
words, and particularly reminding us that human rights have no 
boundaries. It does not involve geography. It involves all of 
us.
    Thank you.
    Mr. Smith.  Thank you, Mr. Delahunt.
    Mr. Goodling, the gentleman from Pennsylvania.
    Mr. Goodling.  I would like to point out that we have a 
misconception in this Country quite often. We call it 
peacekeeping missions. Often times, they are nation building 
missions and we cannot nation-build. They have to do that from 
within.
    I happened to be there in East Timor in 1977. I saw a lot 
of slaughtering that was not being done by outside. I saw 
slaughtering that was being done inside with three factions. 
Unfortunately, I also saw the Portuguese leave, as they usually 
did, leaving the situation in very difficult straights, having 
done nothing really to help the East Timorese during the entire 
time they were there.
    My concern is now, I guess, have the three factions joined 
together? Are they working together? As I said, at that time, 
in fact, it was not the safest thing. I was young enough to be 
foolish to come in at that particular time. But the three 
factions, at that particular time, were certainly killing each 
other.
    I might ask personally, then also a young chap that I spent 
time with, at that time, Lopez DeCruz, is he still living? Is 
he still working toward peace? What has happened to him? Again, 
we can only help nations if they, themselves, pull together. I 
would hope that we do not have those three factions. Those 
three factions, I suppose, allowed the Indonesians to come in 
and do what they have done ever since.
    That is the end of my statement. I do not know whether 
there are any responses to particular a question or two. If we 
are first in arms, then the French have to be close behind. 
They do not care where they send them, just so they get money.
    Mr. Smith.  I know our two witnesses have to leave, but if 
you wanted to respond or make any final statement before this 
Subcommittee, again, we are honored to have you here.
    Mr. Gusmao.  [Via Interpreter.]
    Ms. Interpreter.  Mr. Chairman, Members of Congress, ladies 
and gentlemen, thank you for this opportunity and for the warm 
words of solidarity you have expressed to us. We are indeed a 
tiny people, but you are listening to us.
    Congressman Goodling, we recognize our weaknesses, the 
weaknesses that we had 25 years ago. They are now lessons to 
all of us, and they were a major lesson to our people who 
struggled for 25 years and tried to resist and survive just 
because they had the right to self-determination. That same 
right is now recognized by the whole world, by all of the 
international community.
    We all learned from our mistakes. This one has been inside 
me, with me, for the past 25 years. It is in my mind. I thank 
the Congress and I thank the people of the United States of 
America for giving us this opportunity.
    We need your help and we need your assistance. But we are 
also sure that with your help and assistance, as politicians, 
as a body which decides on issues which influence the whole 
world, we are sure that with you, we will build a new East 
Timorese nation, based on values such as democracy, justice, 
and human rights, the very same values that have shaped the 
Nation of the United States.
    Thank you.
    Mr. Smith.  No words can really add to that. That was a 
wonderful vision. Thank you. I would point out to my colleagues 
that we are going to take a 3- to 5-minute recess, as our 
distinguished witnesses depart. Then we will invite the third 
panel up.
    I do hope that Members will stay on because we have three 
experts who will speak to the issue in our third panel. Thank 
you.
    We are in recess for 5 minutes.
    [Recess]
    Mr. Smith.  The Committee will come to order.
    Our third panel consists of Mr. T. Kumar, who is the 
Advocacy Director for Asia and the Pacific, for Amnesty 
International U.S.A. Next, we will hear from Mr. Arnold Kohen, 
President of the Humanitarian Project and author of ``From the 
Place of the Dead: The Epic Struggles of Bishop Belo of East 
Timor''.
    Our next witness on East Timor is a former investigative 
reporter with NBC News. Allan Nairn is a widely published 
investigative journalist who focuses on U.S. foreign policy in 
overseas operations. His coverage of the November 1991 massacre 
of East Timorese civilians by the Indonesian military won 
numerous journalism awards. Formerly banned from entering 
Indonesia, Mr. Nairn has twice been arrested by the Indonesian 
military, including earlier this month in East Timor. After 
significant international pressure on his behalf, the 
Government of Indonesia deported him approximately 10 days ago.
    Finally, Emilia Peres was born in East Timor, and, at the 
age of 14, fled East Timor with her family. For the past 15 
years, Ms. Peres has been an international advocate for the 
plight of her people. She has appeared before the U.N. 
Commission on Human Rights on behalf of the people of East 
Timor, and is a Board Member of the East Timor Human Rights 
Center. Ms. Peres currently lives and works in Australia. We 
are very grateful that she is here as well.
    I would like to begin first with Mr. Kumar, if he would 
begin his testimony.

STATEMENT OF T. KUMAR, ADVOCACY DIRECTOR FOR ASIA AND PACIFIC, 
                  AMNESTY INTERNATIONAL U.S.A.

    Mr. Kumar.  Thank you very much.
    Thank you very much, Mr. Chairman, for inviting Amnesty 
International and for holding this important hearing at this 
crucial time. The reason why I mentioned crucial is that there 
is a general feeling that since peacekeepers are moving in, 
everything is fine and well in East Timor and to the people of 
East Timor.
    Other reports show that things are not so fine. Still East 
Timorese in West Timor and other parts of Indonesia, including 
Jakarta, Bali, and other places, have been harassed and abused 
by the Indonesian military and the militias. I would like to 
draw your attention to that issue, Mr. Chairman.
    When I was listening to the hearing testimonies during the 
last 2 or 3 hours, I was taken aback by the enormous 
responsibility that human rights organizations and people like 
you who are in power carry to protect and promote individuals 
who have been abused, and killed, and slaughtered in large 
numbers with total impunity. We, as an organization, have been 
working on abuses around the world for the last 38 years. This 
is the first time we were compelled to issue an urgent action. 
That means, it is a crisis situation that we alerted 1.1 
million members around the world that the whole population of 
East Timor was in danger or fear of being killed or abused.
    In that note, we can certify to you that the abuses that 
occurred, until the international community put its act 
together, was beyond belief even to organizations like us who 
monitor abuses around the world. We are grateful that President 
Clinton took a strong step, but we wish that he took those 
steps at least a week before.
    If he would have taken the same steps, at least a week 
before, we could have saved hundreds, if not thousands of 
lives. We could have saved children who are left orphans today. 
We could have saved thousands who were forced to be kidnaped to 
West Timor. This may be a lesson that we all have to look back.
    When there is a crisis, when there is slaughter going on, 
act immediately, whether it is your friend or foe. The history 
of East Timor tells us only one thing. That tragedy did not 
start 2 months ago or 6 months ago. In 1975 when the 
Indonesians invaded, 1/3 of the population was wiped out.
    The entire world, including ours, Mr. Chairman, kept 
silent. It is OK to keep in silent to some extent, but they 
were rewarded with military training and weaponry. Our 
corporations lined up to profit from the natural wealth of that 
country, looking the other way of the abuses that is being 
perpetrated against innocent civilians.
    If history says anything to us today, one thing we have to 
learn is never, never keep silent whenever there are abuses. 
Indonesian military got this courage and strength to slaughter 
with total impunity ever since they slaughtered half a million 
to a million Indonesians in the wake of coup-de-ta.
    It was looked upon as an anti-Communist issue and the world 
at large. Especially our Country kept quiet. That was the 
mistake that was made. We are seeing a country which has the 
military which has been used to abuse its citizens for the last 
30 years. The victory, so-to-speak, that we are seeing today is 
not totally the victory for East Timorese.
    It is a victory for Indonesians. Indonesians are the people 
who suffered most. They were the people who were slaughtered 
under this military, for total impunity, for 35 years; Aceh, 
Irian Jaya, even Java, there are seven political prisoners 
still in prison in Indonesia; Gudiman and six other people.
    They have been completely and conveniently forgotten by 
everyone. When I met with Gusmao yesterday, I asked him how is 
Gudiman doing, even though I do not know him. I just asked him. 
The answer was, he is taking the lead now. Gusmao is taking the 
lead to make sure that these people are released.
    So, in a nutshell, what we are seeing today is a victory 
for the Indonesian people and justice to the Indonesian people 
if the International War Crimes Tribunal is setup. On that 
note, Mr. Chairman, I would like to bring to your attention 
what was brought to us from London this morning, that Jakarta 
may not accept the tribunal that is going to be setup.
    If it is true, then the Clinton Administration and you, in 
the leadership positions, have to make a very strong and clear 
statement and stand against this international institution that 
is going to be formed.
    In closing, for Amnesty, the people of East Timor have been 
very close to us ever since their suffering started. In 1974, 
we had a major campaign called, Free the Coats of Suffering and 
Terror in East Timor. This is the report we published.
    In fact, Gusmao is being portrayed here with his picture. I 
also would like to urge you to include my full statement in the 
record. Thank you, again, Mr. Chairman. Amnesty International 
is pleased to testify.
    [The prepared statement of Mr. Kumar appears in the 
appendix.]
    Mr. Smith.  Thank you, Mr. Kumar for your excellent 
statement and for your strong appeal. Your full statement will 
be made a part of the record. The full statements and any 
addendums by all of our witnesses. Thank you.
    I would like to ask Mr. Kohen, if you would proceed.
    Mr. Kohen.  Mr. Chairman, excuse me for getting here late. 
I wanted to make sure that I was able to speak with Bishop Belo 
to send a special message to the Committee. He just arrived now 
in Portugal from Germany. When I finally reached him and I told 
him I was coming here to testify, he said, what is your 
message?
    The message is that the Clinton Administration, the 
Congress, all of the political parties in the United States and 
all of the candidates should be united behind the goal of 
ending the violence in East Timor and making sure that the East 
Timorese people and the churches there are able to rebuild.
    That is exactly the message I would like to send. Please 
tell them I would like to come there myself when I have an 
opportunity, and, for the moment, if you could convey certain 
things for me. I intend to make a very brief extemporaneous 
statement. I will have a slightly longer one for the record.
    I spoke with Bishop Belo just before his house was attacked 
on September 6th. At that time, he was, as he always is, 
skeptical that there would be such a full scale assault on his 
residence. It had never happened before. He was quite surprised 
that such a thing would take place. He is somebody who hates 
exaggerations.
    To illustrate this point, the bishop had even said that the 
attack on the Diocses the day before was not actually an attack 
on the heart of the Diocses, it was an attack on the garage. 
So, despite threat of an assult, he remained at home. I said, 
are you going anywhere? He said, where could I possibly go? I 
have 4,000 people taking refuge here. He said, I cannot just go 
running around.
    What ended up happening was that militias with actually a 
handful of Timorese forced to go in front, led by Indonesian 
special forces, came into the bishop's home and started 
shooting. Six young men who live in his compound gathered 
around to protect him from harm. Militia accomplices told him, 
sit down. But the Bishop refused.
    The reason that he refused to do so is because, and I (will 
hold this bloody photo up) is what took place during the 
Liquica Church Massacre in April of this year. What happened 
there is that people were told to sit down and they never got 
up: They were essentially massacred. So on September 6, the 
Bishop just got up, walked out of his office, walked out the 
front gate, went to the police, insisted on protection. The 
next day he left East Timor because he knew that he had to go 
and speak with the Pope in Rome and tell him about this and 
other things.
    Essentially, the last barrier had been broken. I had stayed 
in the Bishop's house on a number of occasions. This was one 
place where people could go for refuge. This was one place 
where you would not see these kinds of assaults. It did not 
make what was going on outside any nicer, but at least people 
felt some security that they could go there.
    This ended on September 6th. Quite unfortunately, I have to 
say that when the Liquica Massacre took place, there were 
certain communications made to this Administration by people in 
Congress, by people in churches. The response that they got 
back, particularly from people in the Pentagon was, if we 
restore military aid to Indonesia, perhaps we will have more 
influence on them.
    Unfortunately I think what happened as a result of that is 
that Indonesian military people, and I have this from a number 
of sources, I am a trained investigative reporter. I used to 
work for NBC News, I have it from a number of sources that the 
way that the Indonesian military interpreted this message from 
our military is that, in effect, what had happened in Liquica 
and what these militias were doing, rather quietly out of the 
view of television cameras and reporters in the countryside of 
East Timor, was of no great consequence to the United States.
    Effectively, that led not only to the assault on the 
Bishop's house and the assault on the ICRC, but also the 
assault on East Timor as a whole. I am somebody that over the 
years, and I have to say this because I think that there are 
witnesses here with me today that would attest to this, that I 
have not been automatically one who would have said in the 
past, let us cut all aid.
    Sometimes communications between our military and the 
Indonesian military have proven to be useful. After the Santa 
Cruz Massacre, for example, and on a few other occasions. But 
on this occasion, that did not work. It simply did not. This 
relationship was abused. I really feel that something more 
could have been done.
    As Mr. Kumar just said, a lot more could have been done to 
dissuade the Indonesian military. I think that even, until 
recent days, they did not quite get it. I think that there was 
a sense that they would pay no great price for what they were 
doing I think that what took place in recent weeks, and indeed 
the killing of church workers the other day, might have been 
prevented.
    I happened to have known the Italian Sister who was killed 
and the Timorese Sister who was killed. These people were 
delivering aid to people in the countryside. They had hurt 
nobody. Militias instigated by the Indonesian army just started 
shooting. They have done it in other places, not only to 
religious workers, and not only to Catholics. Others have been 
threatened. Just yesterday, I received a communication from 
religious Sisters in Australia who were in touch with the 
Sisters in Timor. They said the militias right now, that is as 
of yesterday, were given license, they said, by elements of the 
military to go around and start killing priests and nuns.
    I do not know if this will happen. I sure hope it does not. 
I think that if we put enough pressure on the Indonesian 
military, maybe it will not come to pass, but this is the type 
of atmosphere I think was created by trying to restore military 
aid to Indonesia after something like the Liquica Massacre took 
place.
    I will end my statement there and take any questions later. 
There is a lot more to say, but that is the essence, I think, 
of what I would like to communicate.
    [The prepared statement of Mr. Kohen appears in the 
appendix.]
    Mr. Smith.  Thank you very much, Mr. Kohen. I appreciate 
your work. You mentioned Bishop Belo. I would just say for the 
record, Joseph Rees, our Staff Director and Chief Counsel, was 
actually in the church when the announcement was made that 
Bishop Belo had received the Nobel Peace Prize, which certainly 
was a great moment. Thank you for conveying his thoughts and 
sentiments to the Committee, and, by extension, to the American 
people. Mr. Nairn.

        ALLAN NAIRN, INVESTIGATIVE JOURNALIST, NBC NEWS

    Mr. Nairn.  Thank you, Mr. Chairman.
    I have had a lung problem that flared up. So, it is a 
little difficult to talk. It is a special pleasure to be here 
today, having been in the same room with Xanana and Jose Ramos-
Horta, Kumar, Emelia, and Arnold Kohen, who is a tireless 
campaigner for human rights.
    Today, as we are meeting here, Dili is in ruins. Half of 
Timor is, in effect, held hostage. They are finding the remains 
of decapitated bodies, as AFP reported yesterday. They are 
finding police file photos of dead torture victims with their 
hands bound behind their backs.
    Uncounted thousands of Timorese are still in hiding, 
surviving on roots and leaves. General Wiranto's militias are 
threatening further terror. Yet, this is a great day because 
East Timor stands on the brink of freedom. It is hard to 
imagine really. They said it could not be done.
    Back in December 1975, when the Indonesian military began 
consulting with Washington about a possible invasion, they 
promised that they could crush Timor within 2 weeks. General 
Ali Mortopo came to the White House and met with General Brent 
Skowcroft. President Ford and Henry Kissinger went to Jakarta 
and sat down with Suharto.
    Then 16 hours later, the invasion was underway. The 
paratroopers dropped from U.S. C-130's. They used new U.S. 
machine guns to shoot the Timorese into the sea. In 1990, when 
I first went to Timor, the Intelligence Chief, Colonel Wiranto 
confirmed that by that time, their operation had killed \1/3\ 
of the original population.
    On November 12, 1991, when the troops marched on the Santa 
Cruz Cemetery, they carried U.S. M-16s. They did not bother 
with warning shots. Amy Goodman and I stood between them 
futilely hoping to stop them from opening fire, but they opened 
systematically and they kept on shooting because as the 
National Commander, General Swtcisno, explained, East Timorese 
are disrupters. Such people must be shot.
    That was army policy. That is army policy. At no time 
during these years of slaughter, did the U.S. Government's 
executive branch ever decide that the time had come to stop 
supporting the perpetrators. President Carter and Richard 
Holbrook sent in OV-10 Broncos and helicopters. Presidents 
Reagan, Bush, and Clinton sent in weapons, multilateral 
financing, and sniper trainers. But now they say circumstances 
have changed. President Clinton has announced a military 
cutoff. There is even a Clinton doctrine under which the United 
States will intervene to prevent mass slaughters, like 
genocides, pogroms, and ethnic cleansing.
    In recent weeks, commentators have criticized the U.S. for 
failure to intervene. For not sending in foreign troops fast 
enough to stop the Indonesian army's final burst of Timor 
terror. Mr. Chairman, I want to make the point today that 
intervention is not the issue.
    The Clinton doctrine, and the questions flowing from it, do 
not apply in Timor or Indonesia because the killing is being 
perpetrated with the active assistance of the United States. 
The U.S. is not an observer here. It is not agonizing on the 
sidelines.
    It has instead been the principal patron of the Indonesian 
armed forces. The issue is not whether we should step in and 
play policeman to the world, but rather whether we should 
continue to arm, train, and finance the world's worst 
criminals. I think most Americans would say, no, we should not 
do that. I know that many in Congress, from both parties, would 
agree.
    As of this moment, U.S. policy is still, the temporary 
cutoff notwithstanding, to restore as soon as possible its 
support for the Indonesian armed forces. On March 3, Admiral 
Dennis Blair, the U.S. Commander-In-Chief in the Pacific told 
Congress that the Indonesian armed forces was the main 
instrument for order in Indonesia.
    He was speaking, as he and the world knew, after 34 years 
of army terror, which has claimed perhaps a million Indonesians 
and 200,000 East Timorese. In most people's eyes, such violent 
behavior is the antithesis of order. But for the U.S. Executive 
branch, it has been the basis of a policy.
    In dozens of countries, unfortunately, the U.S. has chosen 
to use killer armies. From Guatemala City, to Bogota, to 
Beijing it has embraced the enemies of freedom. But today in 
Timor, we can rejoice because, for once, that policy has been 
defeated. In Jakarta, Surabaya, Medan, on the streets of the 
fourth largest country in the world, brave Indonesian students 
and working people are demonstrating against the army.
    They demand that it get out of politics. That it dismantle 
its feared police state. They are risking their lives for real 
democracy. The United States should be on their side, but it is 
not, Mr. Chairman, at least not yet. That is why we are here 
today. Congress needs to act to reverse the fundamental course 
of U.S. policy.
    The bill, H.R. 2895, which you and others are backing, is a 
good start to ending support for terror in Timor, but Congress 
needs to go further in at least two basic respects. First, the 
cutoff should be conditioned not just on Timor issues, but also 
on an end to Indonesian army terror everywhere.
    The army should not be able to win back U.S. support by 
choosing new targets. Severe repression in Aceh, West Papua New 
Guinea, and elsewhere is already underway. Congress should not 
be supporting it simply because the army has finished with 
Timor.
    Second, although this cutoff may be the most comprehensive 
ever attempted, there are still many lines of support for TNI 
and the Indonesian national police that the legislation does 
not cover. Last year, there was an uproar in Congress when it 
was disclosed that the Pentagon's JCET Program was training the 
army in urban warfare, syops, and sniper techniques.
    Congress, like the press and public, had thought that 
military training was cutoff when Congress canceled Indonesia 
IMET training to Indonesia after the 1991 Dili Massacre. Today, 
it is again the conventional wisdom that the U.S. no longer 
trains the Indonesian military, and that U.S. material support 
for TNI is now at a token level.
    It is indeed the case that due to public pressure, a 
bipartisan coalition in Congress has cut many lines of support, 
including bans on small arms, armored vehicles, and the use of 
U.S. weapons in Timor, and the cancellation of deals for F-5 
and F-16 fighters.
    It is also the case that contrary to Congress' 
understanding with the executive branch, the U.S. has, through 
1999, been intensifying its links with TNI, even as Timor 
militia terror and repression in Aceh have escalated. It is 
also the case that there are many complex lines of support for 
Indonesia's armed forces that, to this day, remain largely 
unknown to even the most engaged Members of Congress.
    For the past 5 months, I have been in Indonesia and 
occupied Timor trying to investigate these lines of support. It 
would take many hours to lay out the facts in detail. I will 
just mention a few brief examples to give an idea of the scope 
of the problem.
    A couple of weeks ago, I reported in The Nation magazine on 
internal Pentagon cables, classified cables, issued 2 days 
after the Liquica Massacre, which Arnold so graphically 
described, that horrific church massacre in which the militias 
backed up by uniformed troops, went into the church, in the 
rectory, and hacked dozens to death.
    Two days after that meeting, the senior U.S. uniformed 
officer in the Pacific, Admiral Dennis Blair, sat down with 
General Wiranto, the Indonesian commander. Blair had a mission 
from the State Department and others to tell Wiranto to shut 
the militias down.
    In fact, as the classified cable summarizing the meeting in 
great detail shows, Blair did the opposite. He offered Wiranto 
new U.S. military assistance. He offered to join Wiranto in 
lobbying the U.S. Congress to reverse standing U.S. policy to 
get the IMET military training restored.
    He offered Wiranto the first new U.S. training program for 
the Indonesian security forces, since 1992. This is a crowd 
control and riot control program that was focused on precisely 
the unit that 2 days before had helped stage the Liquica 
Massacre. He even invited Wiranto to be his personal guest at 
his quarters in Hawaii.
    Wiranto and his people were delighted by the meeting. They 
took it as a green light to proceed. I can now report to the 
Committee, Mr. Chairman, that there was an additional meeting 
after the Blair-Wiranto session, which had perhaps even more 
significant implications.
    This one took place on July 14th in Jakarta. It involved 
Admiral Archie Clemens, the Commander of the U.S. Pacific 
Fleet. Admiral Clemens came in to make a presentation to Senior 
ABRI leadership, including the Naval leadership.
    Now, at this time, the militia campaign was in full swing. 
The Liquica Massacre had happened. The assault on Dili had 
happened. This is the assault in which the militia staged a 
rally in front of the Governor's office. It was broadcast live 
on the official state radio station, Radio Republic Indonesia. 
Enrico Gutierrez, the militia leader, stood up and issued a 
public death threat against the Carrascalao family.
    The militias then proceeded to trash the Carrascalao house, 
killed the son of Manuel Carrascalao, killed dozens of refugees 
who were hiding in the rear of the house, rampaged through 
Dili, shooting people on-sight. This all happened after a 
ceremony that had been presided over by the Indonesian 
occupation Governor and General Zacki McCarrum, the Indonesian 
military coordinator of the militia operation, as I will 
discuss in a minute, a long time protege and trainee of U.S. 
Intelligence.
    This was after the Dili rampage, after countless other 
militia killings. On July 14th, Admiral Clemens came into 
Jakarta. According to Indonesian officers who were present, and 
according to Admiral Clemens' own presentation notes for the 
meeting, he offered the officers an increase, a step up in the 
U.S. military relationship with Indonesia.
    He said, ``Reengagement is crucial to maintaining the U.S.-
Indonesia relationship.'' He referred to the Siabu Range in 
Medan, where Indonesia had given the U.S. rights to stage air-
to-ground firing exercises, and he made a politically crucial 
proposal. He proposed that in Surabaya, at the Indonesian Navy 
Eastern Fleet Headquarters, training facilities be established 
for the U.S. military.
    Anyone who follows Indonesian military politics knows that 
there are few hotter issues than the prospect of U.S. military 
bases in Indonesia. Some in the military are for it. Some are 
against it. It is a highly charged issue. Here, Admiral Clemens 
was going to the military leadership and proposing what he 
called ``possible training sites'' to train U.S. troops 
directly in an ongoing permanent basis on Indonesian soil.
    Admiral Clemens went so far as to say that the U.S. goals 
for the Asia-Pacific Region depend on maintaining our strategic 
partnership with Indonesia. This, at a time when the State 
Department and the White House were publicly threatening to 
cutoff the Indonesian army because of the militia terror and 
the terror in Aceh.
    He then went on to urge the Indonesian military to, as he 
put it, ``Maintain access to advanced technology.'' He 
specifically was talking about new large scale purchases of 
high tech electronics which would allow the Indonesian navy to 
integrate their command and control and surveillance facilities 
directly with those of the U.S. Navy.
    He went on to discuss, in some detail, the FDNF IT-21 
installation. These are U.S. Naval electronics, which he was 
urging the Indonesian military to link up with. If you would 
like, Mr. Chairman, I could make available to the Committee 
some of the slides that the Admiral presented in this meeting 
and some of the Admiral's own notes.
    Mr. Nairn.  As this was going on, and as the militias were 
rampaging on the streets of Dili, the U.S. was continuing to 
ship in ammunition to Indonesian. Last year, Representative 
McKinney, the Chairman, and others made a special effort to try 
to cutoff the influx of U.S. ammunition and spare parts. At the 
time it did not succeed.
    This year, we could see the consequences. A few weeks ago, 
as Dili was burning, and as the U.N. evacuated, as foreign 
journalists had left, I had the opportunity to be, one of the 
last foreign journalists, left on the streets of Dili.
    I was walking around in the early morning going from one 
abandoned house to another. You could hear the militias coming 
around the corners with their chopper motorcycles. They would 
fire into the air and honk their horns as they were about to 
sack and burn another house.
    You also found littering the streets hundreds upon hundreds 
of shell casings. They came from two places. One from Pendad, 
the Indonesian military industries which have joint ventures 
with a whole list of U.S. companies, and the other from Olin 
Winchester of East Alton, Illinois.
    These cartridges had been recently shipped in to Battalion 
744, one of the territorial battalions in Timor, and then 
issued to the militiamen. As you can see from these photos, 
they come in the new white Olin Winchester boxes, 20 cartridges 
to a box. These were among the bullets that they were using to 
terrorize Dili.
    The units on the ground that were specifically running the 
militia operation included some of those most intensively 
trained by the United States. This includes Group 4 and Group 5 
of KOPASSUS, BRIMOB, the KOSTRAD Infantry Units, the individual 
officers coordinating the militia operation, including General 
Zacki Mckarrim, Admiral Yost, Nanko, General Shafri Siamsuden, 
Colonel Wudutomonegroho, who was the on-the-ground coordinator 
for the militias in the initial months of their operation.
    They are all graduates of U.S. IMET and Intelligence 
training. I will just end by citing one dimension that I would 
suggest Congress look into. Many in Congress believe that they 
have cutoff U.S. training for the Indonesian military and 
police. As far as I can tell, that is not the case.
    There are several other training programs going on, besides 
IMET, besides JCET. Admiral Sudomo, the long-time Chief of 
Suharto's Secret Police, a man who was presented with the 
Legion of Merit by the U.S. Joint Chiefs of Staff, told me, in 
a series of on-the-record interviews, that for years the CIA 
has been providing intelligence training to intelligence 
operatives from the Indonesian armed forces. He said that this 
training involved 10 to 15 Indonesian officers, per year, who 
were brought over to the U.S. for a 2- to 3-month intelligence 
course. He said that as he understood it, this training 
continues to the present.
    Last year, when I was arrested by the Indonesian armed 
forces and interrogated, the man who was interrogating me, who 
identified himself as Major Dodi Wuboa, at the end of our 
interrogation session, he leaned over to me and said, ``I am a 
member of U.S. Intelligence''.
    I said, ``What do you mean? What are you talking about?'' 
He then went on to describe in detail training that he said he 
had received at the Cheeputat Police Camp in Jakarta and in 
Quantico, Virginia. As Wuboa described it, this training 
involved instructors from the FBI, DEA, and CIA. It included a 
training in subjects such as indoor pistol technique, 
surveillance, and interrogation.
    Over the ensuing year in speaking to many Indonesian and 
U.S. officials, I have finally been able to confirm all the key 
elements of Wuboa's story. Indeed, there has been ongoing 
training at Quantico. Indeed, the FBI, to this day, has its own 
special training program for the Indonesian police.
    Many are brought to the FBI Academy. Others receive 
training onsite in Indonesia, often in intelligence and weapon 
handling techniques. There are several different strands of so-
called anti-terrorist training. Just 1 month ago, according to 
U.S. military sources in Jakarta, a U.S. Intelligence team was 
due to come in and provide what they call counter-surveillance 
training to the Indonesian security forces.
    The Pentagon has been providing new advanced equipment to 
IMIA, the Indonesian Military Intelligence Agency, including 
special radios for use in operations in Irian Jaya West Papua. 
There is a whole strand of links involving training and 
material supply that is not even covered by the Pentagon, not 
even covered by the relevant legislation dealing with the 
Pentagon.
    It involves the FBI, CIA, the DEA, Customs, and the U.S. 
Marshals. It is a very intricate series of connections. 
According to Indonesian police documents I have seen, their 
recent training includes explosives and explosive 
countermeasures. According to a former chief of the SGI, that 
is the Special Intelligence Unit in East Timor who I spoke to, 
the KOPASSUS has received training from U.S. Special Forces 
troops in techniques including the assembly of explosives.
    What this colonel, this SGI colonel' claimed was torture 
resistance. These are sessions in which he said torture 
techniques are discussed and practiced, to a certain extent, on 
trainees. The theory being, if you get caught by the enemy, 
this might happen to you. So, you ought to know what the 
techniques are. He said that this training was not very 
impressive to the KOPASSUS, since they already knew all of the 
torture techniques. He even claimed, he even gave me the names 
of some individual KOPASSUS officers whom he said had died in 
training as these counter-torture techniques were practiced. He 
said it was a part of the curriculum that the U.S. forces had 
given.
    I will stop there. One more thing, one more interesting 
side note. Even as the militia terror was rising to its height, 
there was another strand of training going on involving what 
you might call localization or privatization. A number of 
Indonesian police and intelligence officers were being sent for 
training with individual U.S. police departments.
    One crew was just up at the New York City Police 
Department, the NYPD Police Academy, just about a 1\1/2\ months 
ago. I know contacts have been made with the departments in 
Virginia and in California as well. These training sessions are 
technically not under the auspices of the State Department or 
Pentagon.
    Apparently, they are arranged with the help of the local 
CIA station in Jakarta, and, they say, with approval from State 
Department officials in Washington. A related type of training 
is happening right now at Norwich University in Vermont where, 
at this moment, at least nine KOPASSUS, special forces 
soldiers, are being trained. This is a program that was set up 
with assistance from the U.S. Defense Intelligence Agency. 
Again, it is not technically under the current State Department 
or Pentagon umbrella, but it is yet another way in which the 
U.S. Executive branch manages, by hook or by crook, to provide 
support for the Indonesian armed forces.
    The short answer to what has the U.S. role been with the 
Indonesian military in the months of the militia terror, it has 
been deep. It has been extensive and many key officials have 
been attempting to intensify it. I believe it should stop. I 
believe that many in Congress have clearly shown the will to 
stop it.
    It is a matter now of tracking down all of these lifelines 
that run into Jakarta. It takes a lot of work. Then it takes 
going around and systematically cutting them off one-by-one 
because that is the only thing that will work.
    Thank you, Mr. Chairman.
    Mr. Smith.  Thank you very much for your extensive 
testimony. You just may find it of interest, on a recent trip 
to Jakarta when I met with our U.S. military attache, I had two 
of your articles. I had all of those documents as well. When I 
shared it with him and with others in the embassy, he just 
dismissed it completely.
    You had pointed out the training of KOPASSUS and the 
allegations, which the record clearly bears out, of their use 
of torture against innocent people. He also said that the 
JCET's Program had been looked at by human rights organizations 
and had been given the green light, to which I said, ``name 
one. Give me the names of the organizations''. I got nothing 
but a vacant and blank stare. We do thank you for your 
investigative work. I would like to ask Ms. Peres if she would 
present her testimony.

  EMILIA PERES, INTERNATIONAL ADVOCATE FOR THE PEOPLE OF EAST 
                             TIMOR

    Ms. Peres.  Thank you.
    I just wanted to say, first of all, the reason why I am 
here in America, my company--is my own part of a technical 
team. Before I came here, I was in Jakarta. About 2 month ago, 
I went to Jakarta to help in development plans for East Timor. 
We were thinking that everything was going all right and we 
were preparing for the ballot and then what was coming after 
the ballot. Unfortunately, after the ballot and after the 
warnings, not only of my leaders to the international 
community, to UNAMET itself, I remember speaking to members of 
UNAMET in Australia, asking them what would happen after the 
ballot. Would forces be in place after the ballot because we 
felt it was very dangerous period, and this period after the 
ballot to the Phase III.
    We were told, do not worry. We will be there. We will not 
abandon the East Timorese people. Unfortunately, we all know 
what happened. So, after the ballot and after the announcement 
of the results, the destruction started to happen in East 
Timor. I stayed behind in Jakarta to actually help the other 
East Timorese who became targeted by the Indonesian special 
forces and some militias.
    At the beginning it was like a number of people started to 
contact us to ask for protection to get out of the country 
because they were harassed. It started with some of the 
leaders. In our limited way, we managed to get them out of the 
country. Then students started to come to us. Then the list 
started to increase.
    So, after awhile, not long, within a week, we had about 700 
people registered with us. That was myself and another two 
Timorese in the team. I started to put the list together. 
Within about 2 weeks, the list went up to 2,000. We knew we 
could not help. So, we started to approach embassies. We 
started to approach the United Nations High Commission for 
Refugees for them to do so, the Red Cross, because people 
started to seek refuge in private homes, seeking refuge in 
convents, religious orders, and NGO's for protection. But even 
so, they did not seem to actually get the protection they were 
seeking. We took upon ourselves to actually plead with 
governments to see if we could evacuate these refugees.
    My leaders before already attacked on the issue of the 
refugees, not only in West Timor, but those ones that were in 
other islands of Indonesia. The reason why we concentrated on 
the other islands of Indonesia was because we felt that at 
least we could help those people, because in West Timor access 
was very hard, especially for people like us.
    The international community themselves could not actually 
access the concentration camps while I was there. That was mid-
September when I was still organizing the beginning of this 
evacuation. When I actually came out, when I was called to come 
out from Jakarta and come here, we were at the stage where the 
United Nations' High Commission for Refugees were already in 
the process together with UNAMET representatives, the Red 
Cross.
    They were all trying to help and a lot of the embassies in 
Jakarta. We got the green light from the Indonesian Government 
that our people could get out of Indonesia, but we needed to 
organize transportation, etcetera. So, we did that.
    Unfortunately today, it is already about 10 days after, 
nothing has happened. The people are still there. I keep in 
constant contact with them. The situation is becoming worse. 
People have moved from house-to-house. My own group, when I was 
in Jakarta, we were already on the fifth hotel because every 
time we got detected, we felt we were not secure anymore. We 
had to move to another hotel.
    Then the colleague that I left behind is now in the sixth 
hotel because the other hotel was recently, there were 
demonstrations. New faces started to hang around the hotel and 
they felt, they got information that any time they would have 
been discovered. The responsibility they covered was just too 
big.
    At that time when I spoke to her, we already had 3,500 
people on our list. Now, these people are mainly students that 
were in Indonesia before the voting, as well as workers, people 
who were living in Indonesia, studying in Indonesia, and with 
the voting, they became exposed.
    The students actually undertook the campaigning. The 
workers came out from remote villages in Indonesia, itself, to 
the main centers where there was the polling booth for voting. 
So, they were exposed and now they were targets. Houses have 
been ransacked in there.
    Death threats have been given to our people. At the moment, 
I believe that there is not, the people on our list, not one 
single one of them that is living openly. They are actually in 
hiding. Now, some people, for example in Bali, they were hiding 
in the church grounds. We were told that even the Bishop's 
house, and this is not the Timorese Bishop, the Bishop in Bali, 
was visited by the head of a military.
    He was questioned, how many Timorese went through the 
house? How many stayed? Nuns were becoming nervous about 
housing Timorese. Some individual families that gave some 
protection to the Timorese families became also nervous because 
after there were people, Indonesian people, dressed up in 
civilian clothes, but you could clearly tell that they were 
from either TNI or KOPASSUS, questioning the families.
    Where is this person? Where is this family? They keep 
coming, once, twice, three times. At the fourth time, the 
Indonesian families, themselves, could not handle it anymore 
and would ask the Timorese family, could you please find 
another place? They used to come to us seeking our help to find 
alternative accommodations, alternative refuge.
    On the 26th of September when I rang Jakarta, I was told 
that in South Jakarta there was a center, a training center 
named K.V. Paulry in Selanbeck. There were 20,000 people being 
trained there. They consisted mainly of soldiers from East 
Timor, Indonesian soldiers, some members of the militia groups, 
ITARAK and BESIMERAPUTI, and some other 2,000 East Timorese 
that were forced, the ones that they took to West Timor, then 
the young males. Two thousand of them were taken to Jakarta to 
this training center to be trained. Apparently, the aim of the 
training center was to actual train these people as militias so 
that they could go back to East Timor from West Timor to fight 
against INTERFET. However, when the militia army had agreed 
that the force could withdraw from East Timor, so we were told 
that they changed their objective, their aim.
    Their aim became to actually hunt all East Timorese in 
Jakarta, Bandung, Sulatiga, Dimpatha, and Surabaya. To target 
all of them. We were also told that this is their plan, to 
actually, they called it Clean-up Operation. To clean-up all of 
these Timorese in Indonesian. When I was there, I was actually 
worried myself because I am also a member of the CNRT and we 
were evacuating nearly all the CNRT leadership, but I was still 
there.
    One of the Timorese people who has contact links with the 
Indonesians, I asked him have we got, the plan was to be taking 
place from the 17th of September onwards because they were 
planning when the multinational forces landed in East Timor, 
that is when they will start their operation in other parts of 
Indonesia.
    I was asking him, what was his analysis of the situation. 
Did we really have enough time or not to plan my own existing 
of the country. He said, look, as soon as the forces land, it 
will be dangerous. Just keep low. However, we may still have 
some time. However, no Timorese should be hanging around in 
Indonesia from the end of October onwards or before the MPR, 
the decision.
    I asked why? He said, because they are going to clean-up. 
However, before they clean us up, they will clean-up the other 
people, their own people inside, people inside the house. I did 
not really understand what that meant. Later on I got the list 
of people who they were, they had a list of people who they 
were going to kill first.
    On that list the names of people like Francisco Lopez 
DeCruz, Rouie Lopez, all those pro-integration people high up 
were listed on that list because they just knew too much. That 
was after Mrs. Mary Robinson had visited Jakarta and spoke 
about this business about international war crimes. When she 
announced that, we were told that the military had a secret 
meeting and that is when this list was drawn up to clean-up 
these Timorese who knew too much.
    If you ask me where are these Timorese, you will find out 
that quite a few of them, at least Francisco Lopez, Rouie 
Lopez, and Clemente Normeral are already out of the country 
because they accessed this information. They went out. These 
are pro-integration people.
    Pro-independence people, it is taken for granted that they 
will be cleaned up. On the 16th of September, three were killed 
in Jakarta itself, three workers. Now, they do not spare 
anybody. I met one of the young boys. His name was Julius. We 
call him Julius of the lost generation because he was one of 
those Timorese who went in the early 1970's or should I say 
late 1970's.
    They took them out to Indonesia and they were brought up as 
Indonesians. So, they do not know their parents. They do not 
know their families. Around the voting time, we found all of 
these Timorese and they were all brought back for the voting. 
They actually joined the pro-independence group.
    Julius' house was ransacked. So, now Julius is actually 
living in hiding. When his house was ransacked, they left 
threatening notes to say that if you do not leave, we will drop 
a grenade into your house. These are people like Julius who 
actually lived there for the last 20 years or led very much 
Indonesian lifestyles. Julius is even a Muslim.
    In Jakarta, we use some embassies to actually escort our 
people to the immigration point so that we can actually get out 
of the immigration without being stopped and face problems. I, 
myself, was escorted out by an embassy there. The problem is 
that the embassies are also being not yet targeted, but 
noticeable.
    Some of these embassies have already asked us and said, 
look, we cannot keep carrying on helping you because otherwise 
we will be noticeable. You have to share. Go to other embassies 
and ask the other embassies to take your people out because 
they will notice.
    For example, they are still in an embassy in Jakarta. We 
cannot even access that because a part from the demonstrations 
in front of the embassies, there is also militia people, plus 
the police just hanging around there to try to identify with 
Timorese are coming with passports to get visas to get out.
    One day while I was actually trying to get some people out 
of the country, I sent this boy to the embassy. I was not even 
aware of what was happening. The poor boy actually delivered 
the passports to the embassy, but then had to actual get into a 
taxi and run because the other guys actually came after him. 
So, he had to go around Jakarta for quite awhile before he made 
them lose trace of him.
    This is the situation in Jakarta. Meanwhile, we also, 
because we were there, were starting to get phone calls from 
Timorese all over, even outside and abroad asking us to locate 
their families in West Timor. We started to do that. So, before 
the 23rd, or on the 20th of September, a friend of ours, a 
religious person, went and visited West Timor, mainly Kupang.
    He actually sent me a report. I am just going to read bits 
and pieces out of this. He says here that, OK, like for 
example, in West Timor, to obtain protection, shelter and food 
rations, many families have to pretend to be related to the 
militia and pro-integration faction.
    The city is teaming with refugees, and police, and soldiers 
from East Timor. He says, in the outskirts of Kupang and even 
further away, there are refugee camps that are in pitiful 
conditions. Journalists are discouraged to enter and the 
entrances are swarming with belligerent men wearing militia-
like clothes.
    Taking pictures is very risky. In some camps, the militias 
just enter and go around searching for young men and Timorese 
leaders during the day and even at night. Members of the 
militia and special forces are hunting down persons who can be 
potential witnesses in the pending war crimes investigation of 
the United Nations.
    Other Timorese are also running away from those who are 
forcing them to join the militia. There are all of these things 
happening in East Timor. The situation is very bad. I will not 
take any longer so that you can ask any question.
    So, thank you.
    Mr. Smith.  Thank you very much, Ms. Peres, for your 
excellent testimony and for the great work you have been doing. 
I do have a couple of questions. I think we will be getting to 
a vote very shortly. So, I will ask one or two and then yield 
to my colleagues, just so that we are sure to get everyone's 
questions in.
    It seems to me that there may be one big subterfuge 
underway with regard to the militias trying to deceive the 
world, that somehow this is some indigenous force that just 
rose up spontaneously. Where the truth probably is more 
accurately to say that this is an Indonesian army orchestrated 
effort, very carefully master-minded and planed out, going 
right to the very top, right to Wiranto.
    Regrettably, much of the media coverage has been that this 
is some local uprising that just systematically kills people. 
I'm interested in your comments, Mr. Nairn. I did ask the 
Administration witnesses earlier. We had invited a Department 
of Defense spokesman and Assistant Secretary. For whatever 
reason, they were unable to be here.
    We will reinvite them to ask very specific questions. I did 
read to Secretary Koh and Secretary Taft excepts from your 
Nation article where you point out that Blair, rather than 
telling Wiranto to shut the militias down, instead offered him 
a series of promises of new U.S. assistance. You just added to 
that, talking about Clemens and the July 14th meeting.
    Hopefully, that whole game, that brinksmanship, will be put 
to an end soon, if not today. We will see that it is the 
Indonesian military, first, second, and last that has been a 
part of this, and the day we want to turn off the killing 
fields, it will happen.
    It suggests, I think, to all of us--and maybe you want to 
respond to this--that we need to be much more aggressive in 
cutting off IMF loans, cutting off assistance of any kind. 
Absolutely cutting off military assistance until all of the 
abusers of human rights, and killers, and murderers, whether it 
be in KOPASSUS or anyone else, are vetted and held to account 
and justice is meted out to them.
    Perhaps you would want to speak to that, any of our 
witnesses? Mr. Kohen.

       ARNOLD KOHEN, PRESIDENT, THE HUMANITARIAN PROJECT

    Mr. Kohen.  I would like to say that Bishop Belo issued 
about 10 or 15 warnings in this year alone. One after another 
they were transmitted through church wire services. They were 
transmitted to the Congress and each and every one of them was 
ignored by the highest levels of the Clinton Administration. 
Bishop Belo would say time and again, you have to tell the 
Pentagon, have the American Bishops tell the Pentagon.
    They would tell the Pentagon, but with little effect. The 
Pentagon would come back with some nonsensible story. Really, 
at this stage of the game, there is a pattern. The pattern is 
that the Indonesian military felt that what they would do would 
be without any consequence. What we are seeing now are the 
chickens really coming home to roost.
    It is very sad. The only way that this could be stopped is 
if the Indonesian military understand that this is going to 
cost them and it is going to cost them big time.
    Mr. Nairn.  Yes, I completely agree with that. I think you 
are absolutely right, Mr. Chairman, that this is entirely 
controlled from the top. Two weeks ago, when I was arrested by 
the military on the streets of Dili, I was held at the Korem 
Military Headquarters. That is the main occupation headquarters 
for all of East Timor.
    The Headquarter's general is Kiki Shianoqueri. It is called 
the Committee for the Restoration of Peace and Stability. That 
was the martial law authority in Timor. The entire back half of 
the base was filled with uniformed Aitarak militiamen with 
their black Aitarak t-shirts and their read and white 
headbands.
    You would see them leaving the Korem base on their 
motorcycles and their trucks, holding their rifles and pistols 
to go out and stage their attacks. I asked one of my 
interrogators there, Lieutenant Colonel Willum, are those 
Aitarak guys in the back there? He said, ``oh, yes. They live 
here. They work out of here''.
    ``We have them here so we can control them'', he said. They 
do indeed. I was later brought over to Polda for interrogation. 
That is the main Dili Police Headquarters. At Polda, it was the 
same story. In the operations room and the intelligence room, 
you would see the uniformed Aitarak men going in and out. That 
was where they worked out of.
    Then the following day when they flew me back to West 
Timor, for further interrogation, it was on a military charter. 
Aside from my two military escorts, the rest of those on the 
plane were uniformed militias, some of whom I recognized from 
the streets of Dili as being some of the most threatening 
characters. They had their guns, their rifles on the plane.
    These were actually all members of police intelligence. My 
military escorts explained to me that they were being rotated 
back after having served their 1-year tour. These were the 
militiamen. Incidently, for those who say that Wiranto does not 
have control, that is nonsense.
    The only official, under the current organizational 
structure, the only official to whom both the military and 
police report is Wiranto. Military and police involvement in 
running these militias. Only a total cutoff will send the 
strong message has been extensive.
    Mr. Smith.  Again, I think it should be stressed in the 
strongest terms, this Subcommittee, and particularly this 
Chairman, has tried repeatedly to get information from the 
Pentagon. We have written extensive letters to the Pentagon and 
have gotten back zilch in terms of the questions that we have 
raised.
    When we do get answers back, they are not all that 
enlightening. The Pentagon does answer to a chain of command. 
That goes right to the White House. That goes right to the 
Commander-In-Chief. I mean, we do have a chain of command. 
Congress appropriates money and authorizes programs, as we all 
know, and exercises oversight.
    The clear line of authority goes to the White House. Now, 
Blair, Clemens, and all of these others--on whose behalf are 
they carrying these messages? The President of the United 
States? Secretary Cohen? We need to know where the buck stops 
here as well.
    As you said, Wiranto certainly can say yes or no to these 
activities. How much complicity do we have? How many mistakes 
have we made as a country with regards to this? Mr. Kohen.
    Mr. Kohen.  One important point, I was told by someone on 
the Senate side the other day that as they were considering a 
bill on the Foreign Relations Committee, there was someone from 
the Defense Department going around talking about sea lanes, 
how important Indonesia is. Granted, they are.
    But the notion that the Indonesian military can prevent the 
United States of America, prevent our fleet from using those 
sea lanes is absolutely ludicrous. This is something that is 
told to people who do not know anything and just get scared 
very easily by the slightest bit of information that seems to 
be wrapped in national security terms.
    The fact of the matter is that the Indonesian military has 
to be told, in no uncertain terms by our military, that is 
behavior is unacceptable and it has to be cleaned up completely 
and totally. The notion that they would even try to engage the 
United States of America, try to stop us from using those sea 
lanes is so ludicrous, it is to be unimaginable.
    Mr. Smith.  I appreciate that insight.
    It seems to me the moral equivalent with Wiranto and the 
Indonesian military is like us aiding and abetting Milosevic 
and the Bosnian Serbs. There needs to be an accountability. 
That is where the War Crimes Tribunal comes in, going wherever 
those leads may take one, to hold to account those who have 
killed.
    Mr. Kohen.  What really scared me was the events in the 
weeks that the Liquica Massacre took place, then the attack on 
the Carrascalao house, in Dili by Indonesian-led forces at the 
time that the Irish Foreign Minister was there. A lot of people 
were killed in Liquica. Pilio Manuel Carrascalao's son, who I 
happened to have met when I was there in March, who was 
basically an aid worker. He was an 18-year-old kid. He was 
killed. They slashed him, I believe, as a way of sending a 
message to Manuel Carrascalao and to former Governor of East 
Timor, Mario Carrascalao, who had been the Indonesian Governor, 
that you people are turn-coats. You are going to pay for this.
    What scared me was this was the height of the war in 
Kosovo. At the very moment that the Pentagon was talking about 
humanitarian considerations in Kosovo, they were effectively 
backing Indonesian forces in East Timor. I really was worried 
about that discrepancy because that type of signal seemed to 
say to the Indonesians that they are living on a different 
planet than Milosevic. That whatever they do, it is fine and 
dandy. Milosevic is just in another world.
    Mr. Delahunt.  Would the Chairman yield?
    Mr. Smith.  I would be happy to yield.
    Mr. Delahunt.  I find this testimony astounding, absolutely 
astounding. I would encourage the Chair of this Subcommittee to 
communicate with the Department of Defense in a way that is 
very clear and unequivocal, and I know I speak for myself as 
one member.
    I would be happy to, sign a letter requesting that members 
of the Department of Defense come forward and explain 
themselves. I think that is absolutely essential, given what we 
have heard here today.
    Mr. Faleomavaega.  Would the Chairman yield?
    Mr. Smith.  I agree, Mr. Delahunt. Now, Mr. Faleomavaega.
    Mr. Faleomavaega.  I want to associate myself with the 
statements made earlier by my good friend from Massachusetts. A 
petition, a letter, or even a subpoena to have officials of the 
Department of Defense to come and testify about what we have 
just heard from these gentlemen and our good friend the lady, 
Ms. Peres. I am going to reserve my time for questions, Mr. 
Chairman. Thank you.
    Mr. Delahunt.  I think it is very important not just to 
have Mr. Koh here, but I think it is incumbent upon the U.S. 
Government to bring before Congress those army personnel, from 
whatever branch they may be, who have served, who have been in 
those camps so that they can be inquired of as to what they 
observed.
    As I said earlier, I think you heard my remarks, Mr. Smith, 
this is deja vu all over again, as Yogi said. I do not think 
that we want to have on our hands the responsibility of being 
criticized in a report that was done under aegis of the United 
Nations that demonstrated, in rather very clear terms, that the 
genocide that occurred in Columbia, we did nothing about. I am 
very, very concerned about what I have heard here today.
    Mr. Smith.  Just reclaiming my time.
    I appreciate the gentleman's comments. Just to reiterate 
for the record, we did invite the Department of Defense to be 
here. We wanted to ask a series of very specific questions of 
them. We will do so and re-invite them to give an account. In 
the past, our efforts which have been bipartisan, have been 
unavailing.
    Cynthia McKinney and I have tried repeatedly to get this 
information on collusion with KOPASSUS, training them in urban 
guerrilla warfare. We were raising issues when Indonesians were 
being killed in Jakarta. I went over there, along with Mr. 
Rees, within the same week that Suharto passed the baton, 
however involuntarily, to Habibie, and raised these questions 
with the military command, with our own Stapleton Roy, who was 
then our Ambassador, and a number of others, including Habibie.
    So, it is a major problem. We have got to get to the bottom 
of this rotten situation.
    Mr. Nairn.  Mr. Chairman, I think Mr. Delahunt's suggestion 
is very important, if you could actually get some of the 
uniformed officers here and question them under oath. The only 
response I know of is that Admiral Blair did do a Pentagon 
press briefing.
    He was asked specifically by the press about my Nation 
article, and about the cables, and so on. If you read the 
transcript, he did not deny anything. He did not deny the 
authenticity of the cables. He just, in essence, said, 
everything I do is consistent.
    ``My message is always consistent''. He referred to his 
conversation with Wiranto as a private conversation. It is not 
private. He was there representing the U.S. public, the U.S. 
taxpayers. There is the full transcript of the discussion in 
the cables that you can look at. I think he was probably 
correct in saying he is consistent. The problem is the message 
is consistently a bad one.
    Mr. Smith.  To the best of your knowledge, were Blair's 
promises to Wiranto conditional? If you back off, if you get 
out of there, we will give you more?
    Mr. Nairn.  They were not conditional in shutting down the 
militias. I can search for the exact language. It was something 
to the effect of, we expect that you will continue to make 
progress toward democracy in Indonesian, that kind of thing. 
But he, at no point, even though the State Department had urged 
him to do this, said you must shut down the militias.
    This was 2 days after Liquica. He did not even raise 
Liquica. I mean, you could not have had a more graphic, 
shocking moment. He later had a follow-up phone conversation 
with Wiranto because people at the State Department were so 
upset, they sent an eyes-only cable to Jakarta saying, this has 
to be corrected.
    The same thing happened in the phone conversation. That 
phone conversation was then immediately followed by the Dili 
rampage, the attack on the Carrascalao house and so forth. One 
point I want to make about the constant Pentagon argument. The 
argument for training is, when you train officers it gives you 
access to them. It teaches them good values and so on.
    Those arguments are summarized in this cable. This is a 
cable from Ambassador Roy to SINCPAC. This happens to be a 1996 
cable. I will give it to the Committee and I would urge the 
Committee to----
    Mr. Faleomavaega.  Mr. Chairman, will that be made a part 
of the record? I would like to request that it be.
    Mr. Rees.  I have to ask a question here, I am sorry. Is 
that an unclassified cable?
    Mr. Nairn.  Yes, it is. This one is unclassified.
    Mr. Smith.  OK, we can take unclassified things into the 
record.
    Mr. Nairn.  It makes all of the arguments about how when we 
train officers they get good values. They rise in the ranks. 
Then to clinch the argument, it cites examples of the best and 
the brightest of the Indonesian officers who have been trained 
by the United States.
    These are the examples they cited: General Faisel Tungung, 
who became the Commander-In-Chief of the Indonesian armed 
forces, one of the most notorious hard-line repressive 
officers.
    General Hendrill Priono, one of the legendary authors of 
oppression in Indonesia who was involved in Aceh. He is the man 
who commanded Operation Clean-up in Jakarta, prior to the 1994 
APEC Summit. This was the operation in which they swept through 
the streets, picked up street vendors, petty criminals, 
prostitutes, and executed many of them, according to human 
rights groups.
    Colonel C. Honding, a long-time Intel man who became Deputy 
Chief of the secret police.
    Brigadier General Agus. Actually, he has a less egregious 
human rights record than the others. His main distinction is he 
has bought a lot of U.S. weapons for the Indonesian military.
    Then their final example of the best and the brightest is 
General Prubowo, the most notorious of all the Indonesian 
officers. Also, one of the most extensively U.S. trained 
officers, famous for his personal participation in torture in 
Timor, West Papua, Aceh, for the kidnappings last year in 
Jakarta. I will let you read what they say about Pruboa.
    These are the examples they use to say that when we do 
training, these officers become instruments of U.S. policy. I 
take them at their word when they say that. The problem is it 
is the wrong policy. The careers of these men that they have 
chosen illustrate that.
    Mr. Smith.  Thank you very much.
    I am looking forward to reading that cable. It will be made 
a part of the record. Ms. McKinney.
    Ms. McKinney.  Yes. I think we all are looking forward to 
reading the cable. I just find it outrageous that we can have 
witnesses come from East Timor and Australia, and we cannot get 
the DOD to come across the street to respond to these very 
important questions.
    This is not unlike a similar situation that I experienced 
when we tried to hold a hearing on Rwanda, 1 million people 
dead. We had witnesses come from Africa, come from Asia, but 
the State Department could not come across town to testify 
either.
    Everybody clams up when we start asking questions that 
nobody wants to answer. It is no wonder that this Government 
would be against the international criminal court because they 
would be perpetual defendants at it. There is an evil strain in 
our international conduct from assassination, to 
destabilization, to fomenting war.
    That is our legacy around the world, particularly with 
people of color. There is an evil strain in our conduct. The 
American people do not even know what is happening. Congress is 
lied to. I am wondering how high up does this go? Who is the 
one that is giving Blair and Clemens their orders? Is it 
directly from the White House?
    I am also wondering if we got witnesses from the 
Administration to come here on this particular issue, we would 
have State Department tell us one thing, DOD tell us another 
thing. They can come here and tell us just about anything, 
unless they are compelled to tell the truth and there is a 
penalty for them lying to us. So, under what circumstances can 
we get them here with a penalty, if they do not tell us the 
truth?
    Mr. Smith.  Are you asking me?
    Ms. McKinney.  Yes.
    Mr. Smith.  The Full Committee has the power to issue 
subpoenas, although we could do it as well. We could put 
witnesses under oath and there would obviously be a penalty if 
they lied under oath. What has been the problem in the past is 
that we get evasive answers or no-shows.
    Again, we get excuses, sometimes they are plausible, as to 
why they could not be here. For example, DOD suggested that 
they are all very busy with Secretary Cohen's trip to Indonesia 
as we speak. So, I mean there is some plausibility to that.
    Ms. McKinney.  Pat, we do not even know what message he is 
going to be delivering when he gets there.
    Mr. Smith.  But it has been an ongoing stall to this 
Subcommittee with regard to the training of KOPASSUS. Again, 
Mr. Nairn's previous, writings which I used and circulated to 
U.S. embassy officials in Jakarta officials. It was met with 
eyes opened by several of the people. By the military attache 
and others. It was like nonsense. So, it is very, very 
troubling and beguiling.
    Ms. McKinney.  Mr. Chairman, we, through the work of these 
witnesses, have some very real evidence. I do not think we need 
to let the Administration off the hook on this one. I think we 
need to do anything and everything that is within our power to 
get to the bottom of what is going on.
    Mr. Smith.  You might recall, if the gentle lady would 
yield, Secretary Taft, earlier in this hearing, suggested that 
we write up our questions and submit them to the Department of 
Defense. Secretary Taft has a very responsible, very strategic 
position as head of PRM, and Secretary Koh, is the Clinton 
point person for the Democracy, Labor, and Human Rights. I 
mean, these are very responsible people. They should know. They 
should want to know, and should want to get to the bottom of 
any complicity inclusion with the Indonesian military 
themselves.
    Mr. Kohen.  I feel compelled to read into the record 
something from U.S. News and World Report last week because the 
question was how high up does this go in our Government?
    Ms. McKinney.  Yes.
    Mr. Kohen.  I am reading to you from the bottom of this 
piece. ``While acknowledging the danger of more massacres, 
President Clinton dismissed comparisons with 1994's genocide in 
Rwanda.'' In East Timor he said, ``Not everybody has a 
machete.'' It says here at the end of the U.S. News Report 
here, ``For those who have already felt the blade's edge, and 
for those who will be cut down in the days to come, that 
thought is cold comfort.''
    The kind of language that was used from the beginning, 
Sandy Berger comparing East Timor to his daughter's messy 
college room. President Clinton saying not everybody has a 
machete. These are two of the top, National Security officials 
in this Administration. So, where does the buck stop?
    Ms. McKinney.  Obviously, it stops with them. That is 
appalling.
    Mr. Kohen.  I mean, this is the kind of language they are 
using. This is the tone that is being set.
    Mr. Nairn.  My understanding of the political role the 
White House plays in this is that for years the Pentagon, the 
State Department and the CIA were unanimous in lock step in 
supporting Suharto and in supporting the Indonesian military. 
It was a very deep institutional commitment from all of them.
    Then after the 1991 Dili massacre, as public pressure 
increased, and as Congress and many of the members here got 
involved in the issue, there were some changes in U.S. policy. 
There were various weapons cutoff and various training programs 
cutoff. Within the past, say, 6 to 8 months, that pressure from 
Congress finally did start to affect State Department policy. 
Better late than never, but it did.
    Some people, like Ambassador Roy, were quite resistant. He 
remained one of the old-line Suharto supporters. But others in 
the State Department did start to change. The Pentagon, 
however, has continued to pursue the old line. Therefore you 
have incidents like Admiral Blair just sluffing off the State 
Department's directive to him, policy directive to tell Wiranto 
to shut down the militias.
    I point out the White House's role in this. Of course this 
is the American system, as opposed to the Indonesian system 
where Habibie is completely powerless to stop the militias, if 
he wants to. I think Habibie would like to stop the militias, 
but he is only the President of Indonesia. Wiranto is the one 
who holds the strings. Here, the President is in charge.
    If Clinton wanted to, he could bring Admiral Blair and 
Admiral Clemens in line in a second. But he sees this and 
chooses to let it play out. It is a familiar, we have seen it 
in many other places, a two-track policy where you have on one 
track the public admonitions, all of those great words from the 
State Department, and occasionally from the White House itself. 
On the other, track you have the Pentagon going in and doing 
business with the training, the weapons, and the so on. That is 
Clinton, and Berger's, decision in the end. They have to be 
held accountable for that, but first it has to be exposed. 
There is a false debate going on now.
    This is kind of a diversionary debate where people are 
saying, was Clinton too slow to act in backing an international 
peacekeeping force? Should we do more to intervene? That is not 
the issue here. This is not a case like with Milosevic.
    When you are talking about Milosevic, you are not talking 
about someone whose killers are armed, trained, and financed 
from Washington. Milosevic got his backing out of Moscow and 
other places. You cannot blame the Pentagon, and the CIA, and 
the State Department for Milosevic, at least in terms of 
backing his killer forces, but you can in the case of 
Indonesia. It is not a question of the U.S. failing to 
intervene.
    It is a question of the U.S. all along having intervened 
and continuing to intervene on the wrong side, backing the 
perpetrators. That is an entirely different matter. We have to 
be clear about that. It is much worse, but it is also much 
easier to stop. You do not have to invade Jakarta. All you have 
to do is pull the plug.
    Mr. Kohen.  One thing of relevance, as this is the Human 
Rights Subcommittee. In June 1997, Bishop Belo met with 
President Clinton and Sandy Berger in Sandy Berger's office. 
President Clinton said we will try to be more helpful. Bishop 
Belo was happy about that meeting.
    When he got back to East Timor, within a couple of weeks of 
that meeting, near the Salesian Training School in the eastern 
part of the territory, there were a number of young people who 
were detained. Bishop Belo said specifically, please tell the 
White House about this.
    I did convey this information to the White House in 
writing. I also conveyed it to Congressman Frank Wolf and Tony 
Hall who are very involved in this. Frank Wolf wrote a number 
of letters to the White House about this situation. People in 
the White House said to me, what is there to these Wolf 
allegations?
    But the indication that I had is that they never did 
anything about the allegations themselves. They were more 
concerned about Frank Wolf's letter and his persistence, than 
they were about the specific allegations. I went back to Bishop 
Belo about this information. Of course, other things had taken 
place in the interim. It was not entirely clear what had 
finally happened to the detainees, but what we did know was 
that a lot of people had been picked up during that period.
    This situation is described in the first couple of chapters 
of my book. It is very disturbing when you have a situation 
where the Clinton Administration is more interested in trying 
to prove a dedicated man like Frank Wolf Wrong or Tony Hall 
Wrong than in doing something about the situation. Hall and 
Wolf were partners in all of this. This is bipartisan. This is 
not a partisan issue. But some in the White House were more 
concerned with proving Mr. Wolf Wrong than they were about 
pursuing human rights issues.
    Ms. McKinney.  Mr. Chairman, I will allow the other members 
to ask their questions, but I do want to register my outrage. I 
do not know how to do it.
    Mr. Smith.  You are doing it.
    Ms. McKinney.  I want to do it on the record.
    Mr. Smith.  Again, this will be part of the series of 
hearings. This is not the end of it. We will continue this 
inquiry very aggressively. Mr. Faleomavaega.
    Mr. Faleomavaega.  Thank you, Mr. Chairman.
    I do have some questions, but certainly I would first like 
to commend our speakers or witnesses this afternoon for their 
very eloquent and profound statements. I was interested to hear 
from Mr. Kumar, who gave a sense of historical perspective 
about what had happened to the good people of East Timor.
    I seem to be the only one always knocking on the door. I 
always equate East Timor with West Papua New Guinea for the 
simple reason that these people, the 100,000 West Papuans, were 
likewise murdered and slaughtered by the Indonesian army in 
1963 under Sukarno. Then when Suharto came into power after the 
coup, that was in 1965, after proclaiming that they needed to 
get rid of the Communists, he continued the subjugation of West 
Papua.
    There were approximately 3 million people in Indonesia as 
communists, supposedly, resulting in the killing, genocide, and 
murder of hundreds of thousands of Chinese, and another half a 
million Indonesians that were also slaughtered in the name of 
fighting communism.
    In 1969, the United Nations took an infamous act to 
recognize the military occupation of Indonesia of West Papua, 
letting only 1,000 people, with the barrel of Indonesian guns 
to their heads, vote on behalf of 800,000 West Papuans to 
associate themselves with Indonesia.
    Then, another Indonesian military occupation happened in 
1975, in East Timor. So, for 25 years, Mr. Chairman and our 
good friends here, our military through the Department of 
Defense has been associating with the Indonesian military, as 
has been indicated by Mr. Nairn's most interesting testimony. 
This is not something that just happened 2 years ago.
    This has been going on from the very beginning, even 
earlier in the 1960's. Why? Because our first, foreign policy 
was to get rid of the Communists, containment, the domino 
theory. So, now even after the fall of the Soviet Union's 
Empire, we find ourselves in this situation with a policy that 
continues. We continue to support military dictators like 
Suharto and Sukarno, no differently than what we have done with 
Nicaraguan dictator Anastasio Somozou.
    By the way, I understand Somozau was educated at West Point 
Military Academy. What else is new? We have been doing this for 
years. It is interesting and I commend you, Mr. Chairman, for 
taking the leadership in examining these affairs. I want to ask 
a question of our friends here.
    Is it a cop-out to say another country's problems are an 
internal matter and within the sovereignty of that country to 
resolve, and that we really have no business in getting 
ourselves involved?
    That was probably one of our main pillars of our policy 
toward Indonesia. Whether you are talking about Aceh, or East 
Timor, or even West Papua New Guinea, they were all deemed 
internal matters. Now, at what point should our government 
change this policy, saying it is no longer an internal matter 
belonging to that country? We have got to do something about 
it?
    Do you think East Timor is a good example to change this 
internal matter policy, which I think is hypocrisy, as we are 
not willing to take responsibility to stop clear atrocities? I 
was just wondering your thoughts on this?
    Mr. Nairn.  East Timor is a special case since Timor was 
recognized by the United Nations as a separate territory, which 
was illegally invaded by Indonesia. The invasion was in 
defiance of two Security Council Resolutions. The U.S. had 
blocked enforcement of those resolutions. As you have said, the 
U.N. played a very shameful role in West Papua and so legally 
did recognize the annexation there in a way it did not done for 
East Timor.
    That whole argument they make that it is an internal 
matter, it is an irrelevant argument because the U.S. is 
already involved with the Indonesian military. Through the IMET 
Program, more than 3,000 officers were trained. At one point, 
through the 1980's and early 1990's, a majority of the senior 
staff officers of the Indonesian army had been U.S. trained.
    The logistics of the Indonesian army are organized entirely 
along U.S. Pentagon lines. It is U.S. military contractors who 
have given them the electronics and the surveillance equipment. 
It goes on and on. We are already involved, involved on the 
side of that repressive military.
    Mr. Smith.  Would my friend yield? I am sorry.
    Mr. Faleomavaega.  Go ahead.
    Mr. Smith.  I would ask, Mr. Faleomavaega, if he could take 
the Chair. Mr. Delahunt, and I, all of us, we have back-to-back 
votes. It is probably another 25 minutes or so. If you would 
take this chair and ask whatever questions you have, but if we 
could yield to Mr. Delahunt now so he does not lose his 
opportunity, and then you come back and carry on.
    Mr. Delahunt.  Yes. I will be very brief.
    I think that, Mr. Nairn, you are on the mark. I have to 
tell you what today has really done is raised my concerns, not 
just about Timor. This goes far beyond East Timor. This is 
about programs like IMET, which I am sure we have supported.
    What I am hearing is we have had this ongoing relationship 
with the Indonesian military, but what are we teaching them? 
What does the training consist of? It sounds to me like we are 
not even putting forth democratic values, human rights. Those 
issues seem to be absent from that training. Are we just simply 
teaching them how to shoot guns? Is that what is occurring?
    Mr. Nairn.  In some of the courses, they do have human 
rights units where they say, you should not kill civilians. You 
should respond to civilian authority. The thing is, when the 
officers being trained are members of a military dictatorship, 
which survives through repression and which has an 
institutional policy of repression, it does not matter what 
human rights platitudes you tell them because they are 
officers.
    They are trained to follow orders. The more professional 
you make them, the more skillful and able you make them at the 
job. You make the situation worse because they are from an 
institution that has a bad mission in the first place.
    Mr. Delahunt.  I understand that. It has become very real. 
One quick question to Ms. Peres. You testified earlier about 
folks in East Timor who are in grave danger elsewhere in 
Indonesia. Have you communicated this to the U.S. Government? 
Have you given names? Have you submitted names to any division 
or branch of the Executive?
    Ms. Peres.  In here in America?
    Mr. Delahunt.  In America.
    Ms. Peres.  No. We have given it to the United Nations.
    Mr. Delahunt.  I would suggest respectfully that you 
provide the Chair of this Subcommittee a list of those 
individuals. I am sure the Chairman would, along with other 
members on the Committee, forward that to the appropriate 
agency so that we can be of maybe some value in terms of 
securing their personal safety.
    Ms. Peres.  Fine.
    Mr. Delahunt.  I think obviously that should happen rather 
quickly.
    Mr. Delahunt.  Again, let me say thank you to all of you. 
Your testimony was very informative, and I think particularly 
you, Mr. Nairn, since you have had the experience and was there 
as a first-hand observer. It really was not hearsay. You know, 
99.9 percent of the time when we hear witnesses, it is double, 
triple hearsay.
    Out of fairness, we have to question the validity, if you 
will, of that hearsay. But in your case, you saw it. You saw it 
first-hand. I think that you have done a great service to your 
Country today.
    Thank you.
    Mr. Faleomavaega.  [Presiding] I thank my good friend from 
Massachusetts for his questions and statement. We have all 
kinds of opinions about the media, but sometimes I also say 
thank God for the fourth estate of governance. Sometimes the 
Legislative and the executive branches seem to have failed in 
their responsibilities.
    To have Mr. Nairn, Mr. Kohen, Mr. Kumar, and Ms. Peres this 
afternoon giving their testimonies has been a real education 
for the members of this Committee. One of the questions that 
was raised earlier concerned Mr. Gusmao and Mr. Ramos-Horta's 
statements categorizing these refugee camps as concentration 
camps.
    Somehow, I seem to be getting a different indication from 
our friends from the State Department. They keep calling them 
refugee camps. Now, you and I know what a concentration camp 
is. Maybe, Ms. Peres, if you could maybe elaborate a little 
further on the difference. My sense of what a refugee camp is 
that you have the humanitarian organizations from all over the 
world, the NGO's, pitching in and helping out.
    A concentration camp is literally like what we remember 
from the holocaust. If that is the status that these refugees 
are currently living under, then we really are not doing our 
duty as far as our government is concerned. Secretary Koh from 
the State Department is going to be going there in a couple of 
days.
    There seems to be a lot of shuffling of paperwork and 
visits, but I am not hearing a greater sense of commitment and 
responsibility on what to do with the militias that are 
watching these so-called refugee camps. Can you comment on 
that, Ms. Peres?
    Ms. Peres.  I believe it is all right. Our people are in 
there as hostage, really. They have been forced to go into West 
Timor. Even now, only to say it, last night when I was speaking 
to my colleague in Jakarta, she was telling me that now when 
they distribute rice, this is for the people there, they are 
given two types of cards. One red and one blue.
    The blue card, the Timorese would have to say that they 
want to stay in Indonesia, stay, become trans-migrant. The red 
card is for those that want to go back home. But this is in 
another race to identify those people who do not want to be 
there. Originally the plan, the Indonesian plan, was actually 
to show to the world that more than 200,000 people were 
supposed to have been voting for the autonomy.
    That is why they forced all these people to go into West 
Timor, at gun point. I am not sure. I did not catch the earlier 
session when my leaders were speaking, but when they, one of 
them mentioned that they killed a Nun and a Priest in Bacau, 
between Bacau and Los Palos, at the same time they found in the 
eastern side of East Timor, 5,000 of our population about to be 
forced into the votes to go to West Timor. That was found by 
INTERFET. That was as recent as 3 days ago when the killed the 
Nun.
    Mr. Faleomavaega.  So, 5,000 East Timorese are forced to go 
to West Timor, and no one makes any reports or any accounts of 
this as to their status, as to what happens with their 
separation from family members.
    Ms. Peres.  The people in West Timor, according to the 
friend of mine, the religious person that went into West Timor, 
there were camps that you could not access. Some camps you can 
access. Other camps, you cannot access. It is closed for you. 
There were camps controlled by the Government and they made it 
in such a way for visitors.
    So that when you go there and visit, you think it is OK. Of 
the people who live there, they have food. They have water. But 
other camps, no food, no sanitation, nothing. It is really bad 
conditions. We have had contacts with some of our people in 
there. They are just waiting for help from the international 
community.
    When I came out from Jakarta, the international community 
was not accessing those camps. Yesterday, when I was at the 
World Bank meeting, a member of UNPD said that they were about 
to go into West Timor. Then I asked, do you know how many camps 
there are? Are you going to assess all of them? They did not 
know.
    Mr. Faleomavaega.  About how many East Timorese live in 
Jakarta currently?
    Ms. Peres.  At the moment, our list that is in Jakarta and 
other islands.
    Mr. Faleomavaega.  Or just in the Island of Java or other 
places outside of East Timor.
    Ms. Peres.  Outside of East Timor and West Timor, outside, 
we had a list of 3,500. That is recorded only with us. By now 
there should be more because some are trying to manage to 
escape from West Timor.
    Mr. Faleomavaega.  It is my understanding that top 
corporate and business leaders currently that have a lot of 
wealth in East Timor are also former military officers of the 
Indonesian army. Is that correct?
    Mr. Nairn.  Mr. Chairman, there is an estimate recently 
that about 40 percent of the land in Timor is controlled by the 
Suharto family and enterprises linked to that family. One of 
those investors in some of the Suharto enterprises is Colonel 
Tono Suratman, until recently the military commander for Timor.
    With that said, especially now, that they have burnt the 
place down, there is not a whole lot of wealth in Timor. It has 
been more of a killing field than a place of business. As the 
Indonesian military exited, they made a point of destroying 
whatever they could.
    There was a confidential memo that leaked about 2 months 
ago, now, out of the Office of General Faisal Tunjung. Tunjung 
is one of those IMET best and brightest that I mentioned. He is 
currently the Minister for Politics and Security in the 
Habibie-Wiranto Government.
    His ministry is in charge of coordinating the activities of 
other ministries to bring them in line with army policy. In 
this memo, they described a plan for what they would do with 
Timor if they lost the election. One of the points was destroy 
key facilities on their way out.
    Mr. Faleomavaega.  That is exactly what happened.
    Mr. Nairn.  They have done that, to say the least. I mean, 
take Dili, if you are someone who knows Dili and you go back 
now, it is absolutely shocking. The entire central business 
district is burnt to the ground. Entire neighborhoods are 
vacant. The Diocese, the ICRC, the Bishop's house are all gone.
    On the relocations, refugees is certainly not the correct 
term, I think, for the vast majority. Starting in the lead up 
to the announcement of the vote results, there were systematic 
operations where uniformed police, uniformed BRIMOB, uniformed 
army infantry, and uniformed militias would go house-to-house 
and tell people, OK, you are moving.
    You are moving to Kupang. You are moving to Atambua. You 
are moving to wherever we choose to take you. They were just 
forced out of their homes, put on trucks and boats, and taken 
away.
    [Witness is coughing throughout testimony.]
    Mr. Faleomavaega.  Sorry, I do not have any cough drops to 
give you.
    Mr. Nairn.  When I was being questioned at Polda, the 
police headquarters, it was kind of a chaotic scene there 
because they were getting ready to shutdown and withdraw from 
Timor. They were burning many of their documents. In the midst 
of that, I was able to see a police intelligence document, 
which described an operation called ``Hynerwene Lauro Sydua'' 
in which they laid out in detail how they would round up and 
relocate Timorese. This document, which was written about 2 
weeks ago now, gave a precise figure. It said 323,564 Timorese. 
That means nearly 40 percent of the population that will be 
relocated pursuant to this program.
    Mr. Faleomavaega.  What is the total number of the 
Indonesian military forces, Army, Navy, and Air Force combined? 
Any figures on that?
    Mr. Nairn.  It was in the range 20,000 to 30,000.
    Mr. Faleomavaega.  Nationwide?
    Mr. Nairn.  In East Timor, yes.
    Mr. Faleomavaega.  No, I mean nationwide. The entire 
Indonesian army, what are we looking at?
    [Witness unable to answer due to coughing spell.]
    Mr. Kohen.  Congressman, as long as you mentioned about the 
economic end of things, I saw something in Business Week, I 
think, the other day saying that there is currently a coffee 
crop worth tens of millions of dollars, most of which goes to 
Starbucks here.
    It was actually one decent program of USAID where the East 
Timor coffee has been bought for higher prices from local 
farmers and ends up in Starbucks. It is quite good quality 
stuff. Anyone who has been to Timor knows that this is some of 
the best in the world. What it said in Business Week, however, 
is that this coffee is not going to be picked this year because 
the military is destroying the crop, really out of spite. If is 
nothing else, we should try to stop this destruction from 
happening.
    I know if I were a Member of Congress, I would ask some 
very hard questions about why this USAID-funded project is 
suddenly being sabotaged by the very people that we have been 
giving U.S. military aid. This is one thing that should be on 
the table right now so that at least the Timorese have the 
coffee to help their economy recover.
    Mr. Faleomavaega.  There were recent media reports, and I 
wanted to know if this is accurate in that the Suharto family 
has accumulated a wealth well over $8 billion. this includes 
the personal wealth of this family, relatives, their different 
businesses, not just in East Timor, but throughout Indonesia.
    How would you rank Indonesia's army, as far as its 
effectiveness and its military prowess? Would you say that they 
are just as good as our army, as far as preparation of fighting 
soldiers?
    Mr. Nairn.  That is a very interesting question. I think 
the best comment I have heard on that is from Parmoedya, the 
famous Indonesian novelist and political prisoner of many 
years. He recently took a tour of the United States. He is 
considered a leading contender for the Nobel Prize in 
Literature, and really a great cultural voice in Indonesia.
    He has made the comment that if you look at the history of 
the Indonesian army as a fighting force, they do not do very 
well when they have to fight an armed opponent. In the various 
confrontations they have had over the years with outside 
forces, they usually lose.
    The Timorese, although it was mainly through political 
means, defeated the Indonesian army. I think if accurate 
history is written, this will go down as one of the great 
victories for the weak over the strong: This country \1/200\ 
the size of Indonesia driving out this army backed by 
Washington.
    What Parmoedya remarked was that when it comes to internal 
repression, there the Indonesian army is extremely effectively. 
That is their real business. That is their real mission. That, 
plus military business. The Indonesian army is remarkable in 
that it is not just a repressive force.
    There are various repressive armies around the world, many 
of which the U.S. has had very close ties with. The Indonesian 
army adds an extra dimension in that they also operate a the 
sense like an economic mafia. Nobody really knows precisely 
what the real military budget in Indonesia is.
    It is often commented that, in accounting terms, per capita 
the Indonesian military budget is rather low, and it is, if you 
look at what is written on the books. But estimates say that 
budget probably understates the real military funds by anywhere 
from 30, 40, to 50 percent, because the army has hundreds and 
hundreds of businesses that it runs on its own. KOPASSUS, for 
example. Right outside the KOPASSUS Headquarters in Sejantung, 
when you go into the KOPASSUS Headquarters, you see this gate 
where they have these two gigantic sculptured knives that meet 
over the entrance. Right outside that is this beautiful modern 
shopping center, which is owned by KOPASSUS.
    That is the KOPASSUS shopping mall. The other branches have 
similar operations. Many of them have criminal extortion 
businesses. They are very heavily into prostitution, rackets, 
for example. A former U.S. military attache acknowledged to me 
that the Marines specialize in running prostitution in many of 
the Indonesian cities. It is that kind of mafia-style operation 
which is an integral part of Indonesian military operations.
    Mr. Faleomavaega.  There is a very strong parallel, and 
similarly to the People's Republic of China. Its army also has 
businesses. In fact, it is very, very similar in its operations 
with the way the Indonesian army operates.
    Mr. Nairn.  Yes. That would probably be the closest 
parallel.
    Mr. Faleomavaega.  The closest parallel?
    Mr. Nairn.  The closest parallel economically. Probably the 
one difference would be that the PRC army is more in the big 
business mode, in terms of their style, like these vast 
conglomerates. Whereas, the style of the Indonesian army is 
more like the street extortionist.
    You hear just constant complaints about this from, say, 
local business people, local merchants, anyone who is trying to 
do an honest business on the street level. In Indonesia, you 
have to contend with the army shakedowns. It is just a part of 
life.
    If you happen to be ethnic Chinese, you have the added 
burden when times are tough, and when there is political 
tension in the air, the army will often turn on those very 
merchants they have been extorting. They will lead the mobs 
that will go in and sack the stores, and sack the warehouses, 
So you can see, there is tension. The people hate the Chinese. 
Therefore, you need the army there to protect the Chinese.
    Mr. Faleomavaega.  I just have one more question. One of 
the issues that is debated constantly, not only here in the 
Congress, but also in the Administration, concerns sales of 
military equipment. Do you know our Country currently ranks as 
the number 1 seller of military equipment to other countries of 
the world?
    Do you not think that there should be a global policy 
limiting arms sales because who happens to be the ones that 
purchase most of this military hardware? It is third World 
countries, countries whose budgets are very limited, yet whose 
dictators and governments commit military rather than to 
meeting the economic needs of the given countries.
    I suppose the current policy in our government is that if 
we do not sell our military hardware to these other countries, 
then the French, the British, and the Russians are going to 
take over. So, we have got to continue doing this. Do you think 
this is ever going to change?
    Mr. Kohen.  Economics changed a bit regarding the French. 
Realize that most of the church in East Timor has been leveled. 
The French have taken actually a fairly strong position 
recently relative to what they used to. I did not mean to 
cutoff Allan, but I think we may be faced with a rather 
different situation.
    There has never been a case like this where church 
buildings wholesale have been knocked down where Priests and 
Nuns have been killed. So, I think the position of various 
would-be arms salesmen may be a little different now than 
before. Allen.
    Mr. Nairn.  Yes. I think it is absolutely crucial. Congress 
has to take the lead in this. The executive branch is never 
going to do it on their own, the U.S. mission of trying to 
peddle arms overseas. The Clinton Administration has been 
notable among military contractors for being the most vigorous 
Administration, in terms of pushing U.S. weapons overseas.
    They will all tell you that. They love the Clinton 
Administration because it has gone to greater lengths than its 
predecessors. As you say, in those situations when the U.S. is 
pushing these weapons, the best case, the best you can hope 
for, is that it is just a waste of money.
    That some poor country gets their treasury drained and the 
weapon just rusts in the warehouse, that is the best case. The 
worst case, which often occurs, as in Indonesia, is that those 
weapons are actually used for internal repression, or to fuel a 
regional conflict, or to otherwise cause deaths. It is just 
something that has to be stopped.
    The rationale for it is always, it creates jobs. Any 
economist will tell you, and this is not a controversial 
question in economics, one of the least efficient means of job 
creation is this kind of high tech military weapons investment.
    If you really want to create jobs, you take that same 
amount of money and put it into other kinds of industry, other 
kinds of service, agriculture, whatever.
    Any other channel you put it in, you will end up creating 
more jobs back home. Finally, one thing I forgot to mention and 
this is very much related to the economic front. This is quite 
important. It so happens that today, September 30th, is the 
implementation date for some military budget transparency 
legislation that was passed by the Congress 3 years ago.
    This has been under study in the Embassy in Jakarta. I do 
not think it has gotten any public attention to this date. What 
this legislation says is, I will just read you the relevant 
section.
    It says, ``Beginning today, September 30, the Secretary of 
the Treasury shall instruct the U.S. Executive Director of each 
international financial institution to use the voice and vote 
of the U.S. to oppose any loan or other utilization of the 
funds of their respective institution, other than to address 
basic human needs, for the government of any country which the 
Secretary of the Treasury determines: First, does not have in 
place a functioning system for reporting to civilian 
authorities, audits of receipts and expenditures that fund 
activities of the armed forces and security forces, second, has 
not provided to the institution information about the audit 
process requested by the institution.''
    In other words, if a country's military is not transparent 
working on a sound accounting basis, completely accountable to 
the civilian authorities, then that country cannot get 
international financial institution funds. That is what is 
mandated. That goes into effect today. There is no way 
Indonesia can pass this test.
    They have actually been agonizing about this in the Embassy 
for months. Since it starts today, I think it is now time for 
Congress to take a look at getting this implemented.
    Mr. Faleomavaega.  Ms. Peres, gentlemen, I know it has been 
a long afternoon. I cannot thank you enough for making the time 
to come in and testify.
    I ask unanimous consent that whatever records, materials, 
or statements that you wish to submit to be made a part of the 
record. It will be so, without objection.
    Mr. Faleomavaega.  Again, thank you very much.
    The hearing is adjourned.
    [Whereupon, at 5:15 p.m., the hearing was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 30, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED]63316.001
    
    [GRAPHIC] [TIFF OMITTED]63316.002
    
    [GRAPHIC] [TIFF OMITTED]63316.003
    
    [GRAPHIC] [TIFF OMITTED]63316.004
    
    [GRAPHIC] [TIFF OMITTED]63316.005
    
    [GRAPHIC] [TIFF OMITTED]63316.006
    
    [GRAPHIC] [TIFF OMITTED]63316.007
    
    [GRAPHIC] [TIFF OMITTED]63316.008
    
    [GRAPHIC] [TIFF OMITTED]63316.009
    
    [GRAPHIC] [TIFF OMITTED]63316.010
    
    [GRAPHIC] [TIFF OMITTED]63316.011
    
    [GRAPHIC] [TIFF OMITTED]63316.012
    
    [GRAPHIC] [TIFF OMITTED]63316.013
    
    [GRAPHIC] [TIFF OMITTED]63316.014
    
    [GRAPHIC] [TIFF OMITTED]63316.015
    
    [GRAPHIC] [TIFF OMITTED]63316.016
    
    [GRAPHIC] [TIFF OMITTED]63316.017
    
    [GRAPHIC] [TIFF OMITTED]63316.018
    
    [GRAPHIC] [TIFF OMITTED]63316.019
    
    [GRAPHIC] [TIFF OMITTED]63316.020
    
    [GRAPHIC] [TIFF OMITTED]63316.021
    
    [GRAPHIC] [TIFF OMITTED]63316.022
    
    [GRAPHIC] [TIFF OMITTED]63316.023
    
    [GRAPHIC] [TIFF OMITTED]63316.024
    
    [GRAPHIC] [TIFF OMITTED]63316.025
    
    [GRAPHIC] [TIFF OMITTED]63316.026
    
    [GRAPHIC] [TIFF OMITTED]63316.027
    
    [GRAPHIC] [TIFF OMITTED]63316.028
    
    [GRAPHIC] [TIFF OMITTED]63316.029
    
    [GRAPHIC] [TIFF OMITTED]63316.030
    

</pre></body></html>
